<html>
<title> - House of Representatives, Committee on Armed Services, Washington, DC, Wednesday, Thursday, October 8, 2015. The committee met, pursuant to call, at 9:32 a.m., in room 2118, Rayburn House Office Building, Hon. William M. ``Mac'' Thornberry (chairman of the committee) presiding.</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 
                         [H.A.S.C. No. 114-55]

                      U.S. STRATEGY IN AFGHANISTAN

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 8, 2015

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              ____________
                              
                           
                       U.S. GOVERNMENT PUBLISHING OFFICE
97-194                       WASHINGTON : 2016
______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="086f7867486b7d7b7c606d6478266b676526">[email&#160;protected]</a>  
 

                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Michael Tehrani, Clerk
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Campbell, GEN John F., USA, Commander, Resolute Support and 
  United States Forces-Afghanistan...............................     2

                                APPENDIX

Prepared Statements:

    Campbell, GEN John F.........................................    53
    Thornberry, Hon. William M. ``Mac''..........................    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Sanchez..................................................    75

Questions Submitted by Members Post Hearing:

    Mr. Hunter...................................................    79
                      
                   
           
                         U.S. STRATEGY IN AFGHANISTAN

                              ----------                              
 
                          House of Representatives,
                               Committee on Armed Services,
              Washington, DC, Wednesday, Thursday, October 8, 2015.
    The committee met, pursuant to call, at 9:32 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee meets today to hear testimony from General 
John Campbell, our commanding general in Afghanistan, about the 
situation there. And we are going to have a hard stop at 12 
o'clock. So I am going to ask unanimous consent that my full 
opening statement be made part of the record, without 
objection.
    And just to expedite things, I would say, General Campbell, 
we very much appreciate having you here. My view is we are in 
Afghanistan today for the same reason we were in Afghanistan in 
the fall of 2001, to prevent it from becoming a safe haven for 
terrorists for attacking us. Afghanistan is always going to be 
attractive for terrorism because of its history, because of its 
ungoverned spaces, because of its narcotics, and the financing. 
And so without us there until the Afghan Government is able to 
provide for its own security, we have a lot at stake there. We 
also have a government that is willing to work with us. And we 
haven't always had that. But they have challenges, and I know 
we will talk more about those as the day goes.
    So I think this is an important time in Afghanistan's 
future, and important for us to hear from you. So thank you for 
being here.
    I will yield to Mr. Smith.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 51.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you. I will also ask that my full 
statement be submitted for the record without objection and 
follow----
    The Chairman. Without objection.
    Mr. Smith [continuing]. The chairman's lead and try to move 
quickly.
    And I agree with everything you said. It is a very, very 
difficult part of the world. I would include Pakistan in that 
conversation as well. And I have often said that I wish that we 
didn't have national security interests in Afghanistan and 
Pakistan. It is a very, very difficult place to work with. But 
we do have national security interests in Afghanistan and 
Pakistan, and they are precisely the ones the chairman said.
    Many different terrorist groups, not just Al Qaeda [AQ], 
would love to make a safe haven out of the ungoverned spaces 
and the difficulties that are there. So trying to maintain some 
stability in Afghanistan, and it is, as the chairman said, good 
that we have a partner in President Ghani, that we did not 
really have for a long period of time, that gives us some hope. 
But the challenges are enormous. As the general knows only too 
well in terms of having any sort of, you know, overall control 
of the country, it is still very fractious and still very 
difficult.
    The only thing I would conclude with is a couple things 
that I would like to make sure that we hear from the general on 
is, one, his view of going forward what our troop levels should 
be. And what the utility of that is. What do we need them for, 
what is going to be critical in the next year, two or three, 
and how many troops do you think we and our NATO [North 
Atlantic Treaty Organization] allies must have there to achieve 
those goals?
    And then also the issue of the bombing of the Kunduz 
hospital. You know, it has definitely, you know, set us back 
and it is the kind of thing that we don't want to see happen. 
Would like to learn more about how it happened, what we are 
going to do to prevent that type of thing in the future.
    And with that I will yield back and look forward to the 
testimony. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    General Campbell, again, welcome. The floor is yours. 
Without objection your full written opening statement will be 
made part of the record, and the floor is yours for any 
comments you would like to make.

  STATEMENT OF GEN JOHN F. CAMPBELL, USA, COMMANDER, RESOLUTE 
          SUPPORT AND UNITED STATES FORCES-AFGHANISTAN

    General Campbell. Sir, thank you. Good morning, Chairman 
Thornberry, Ranking Member Smith, distinguished members of the 
committee. Thank you for the opportunity to appear before you 
today. I am honored to lead and represent the service men and 
women of the United States Forces-Afghanistan that have been 
there for the last 14 years. And I have been in Afghanistan for 
this tour for the last 14 months.
    I would like to begin by thanking the committee for your 
steadfast support of the soldiers, sailors, airmen, marines, 
and civilians, and due to your leadership and commitment, they 
are the best trained, equipped force our Nation has ever 
deployed. Their outstanding performance bears testimony to your 
backing and the backing of the American people.
    I am also profoundly grateful for your continued support of 
the Afghan Security Forces Fund [ASFF]. Our ongoing efforts to 
build the Afghan National Army [ANA] and the police could never 
have been possible without your financial commitment and your 
trust. Every day we strive to be good stewards of the American 
taxpayers' money to ensure that our efforts result in increased 
security.
    Members of the committee have also been staunch supporters 
of women in the Afghan Security Forces [ASF]. Your efforts are 
making a difference. An integrated force is better and a more 
effective force. And you deserve to be proud of the advances 
that the courageous Afghan women are now making in the Afghan 
National Army and Afghan police.
    I would also like to pay tribute to our military families. 
They are the unsung heroes of the last 14 years of conflict. In 
many ways, our frequent absences from home are harder on them 
than they are on us. And without their love and support we 
couldn't succeed.
    Finally, I would like to acknowledge and honor the over 
2,200 service men and women who have been killed in Afghanistan 
since 2001, and the over 20,000 who have been wounded. 
Tragically we lost 14 personnel, to include 6 airmen and 4 U.S. 
contractors last Friday in an aircraft mishap. And we always 
remember the Afghan and our own fallen and the loved ones that 
they have left behind. Every day we honor their memories by 
assisting the Afghans to build a stable and secure country, and 
by protecting our own homeland.
    Over 14 years have passed since the 9/11 attacks, and we 
haven't forgotten why we first came to Afghanistan and why we 
remain. Since 2001, the exceptional efforts and courage of our 
forces have ensured that another terrorist attack originating 
from Afghanistan and directed against the U.S. homeland has not 
occurred.
    Seven months have passed since I last appeared before this 
committee. And much has changed since then. Afghanistan, its 
government, security forces, the enemy, and our other coalition 
have undergone tremendous transitions. These changes have 
ensured that this fighting season has been fundamentally 
different. It can't be compared to previous years. I would like 
to emphasize how political, military, economic, and social 
transitions are affecting the operational environment in order 
to place our campaign in context.
    Afghanistan is at a critical juncture. And so is our 
campaign. But before I further explain the formidable 
challenges and opportunities before us, I would like to address 
a few topics that have been in the headlines lately.
    First, I would like to discuss the tragic loss of lives on 
the strike on the hospital in Kunduz. By way of background, the 
U.S. Special Operations Forces have been providing training, 
advice, and assistance to Afghan Security Forces who have been 
engaged in a tenacious fight with the Taliban. On Saturday 
morning, our forces provided close air support to Afghan forces 
at their request. But to be clear, the decision to provide 
aerial fires was a U.S. decision made within the U.S. chain of 
command. A hospital was mistakenly struck, and we would never 
intentionally target a protected medical facility. I must allow 
the investigation to take its course, and, therefore, I am not 
at liberty to discuss further specifics at this time. However, 
I assure that the investigation will be thorough, objective, 
and transparent. And I will get those results back to this 
committee.
    I would also like to remind the committee and the American 
people that we continue to make extraordinary efforts to 
protect civilians. No military in history has done more to 
avoid harming innocents. We have readily assumed greater risk 
to our own forces in order to protect noncombatants. To prevent 
any future incidents of this nature, I have directed the entire 
force to undergo in-depth training in order to review all of 
our operational authorities and rules of engagement.
    Our record stands in stark contrast to the actions of the 
Taliban. They have repeatedly violated laws of war by 
intentionally targeting civilians. The United Nations [U.N.] 
attributes more than 70 percent of noncombatants killed and 
wounded in this war to the Taliban.
    Second, I would like to discuss the sexual exploitation of 
children by some members of the Afghan Security Forces. All of 
us consider it reprehensible. This criminal practice is 
entirely unacceptable to the Afghans as well. President Ghani, 
Chief Executive Abdullah have reiterated that they will not 
tolerate violations of their policies and the Afghan law. And 
they are committed to strict enforcement within their security 
forces. We will do everything within our power to defend and 
protect human rights. That is our moral obligation to you, the 
American people, and ourselves.
    I have ordered 100 percent training of the force to ensure 
that they understand our human rights policy, which has been in 
place since at least 2011. And this policy requires that our 
personnel report any suspected human rights violations 
committed by the Afghan Security Forces, to include any sexual 
abuse of children. Whenever and wherever our personnel observe 
human rights abuses, they will be conveyed through our chain of 
command, and in turn, to the Afghan Government. Perpetrators 
must and will be held accountable.
    With so many weeks left in the traditional fighting season, 
intense combat continues in many parts of the country. The 
Afghan Security Forces have been severely tested this year. But 
they continue to fight hard.
    In the wake of the coalition's redeployment, the Afghan 
Security Forces and insurgents both accepted that this fighting 
season could be pivotal. There was no winter lull, and since 
February, the fighting has been nearly continuous. Casualties 
on both sides have risen. And the violence has moved beyond the 
traditional insurgent strongholds.
    Pakistan military operations this year moved foreign 
fighters into eastern and northern Afghanistan. The emergence 
of Daesh or the Islamic State-Khorasan Province, IS-KP, has 
further complicated the theater landscape and potentially 
expanded the conflict. More recently, the Taliban increased the 
tempo of their operations following the announced death of 
their spiritual leader Mullah Omar.
    We are also now seeing how our redeployment and our 
transition from combat operations to an advisory role has 
really changed the battlefield dynamics. Only a few years ago 
our coalition numbered over 140,000 military personnel. Now our 
forces comprise of fewer than 14,000, of which approximately 
10,000 are U.S. service men and women.
    In years past, our aircraft provided responsive and often 
decisive close air support to coalition and Afghan troops in 
contact. This is no longer the norm but the exception. 
Collectively the Afghan Security Forces are adapting to these 
changes, and in some places they are struggling. Within this 
context, the fluidity of the current security situation is not 
surprising. This fighting season started well for the Afghan 
National Army and the police as they successfully conducted 
multi-corps cross-pillar operations in Helmand, Zabul, and 
Ghazni provinces, and in the southern approaches into Kabul. In 
April, they fought back significant Taliban pressure in the 
north. And in August and September, they reversed almost all of 
the Taliban gains in the northern Helmand, but after 
considerable effort.
    Yet there have been setbacks, and most recently the Taliban 
overran Kunduz City. Still the Afghan National Army, the 
police, and the special forces rallied, and they have regained 
control of most of the city. Just as they have successfully 
retaken other ground temporarily lost through this fighting 
season.
    The Afghanistan Security Forces' inconsistent performance 
in Kunduz underscores several of their shortcomings. They must 
improve their intelligence fusion, command and control, and 
utilization of their forces. They don't possess the necessary 
combat power and numbers to protect every part of the country. 
This makes it very difficult for the Afghan Security Forces to 
counter the Taliban's ability to temporarily mass, seize an 
objective, and then blend back into the population. Ultimately, 
the Afghan Security Forces and their leaders need to discern 
better when to fight, when to hold, and where to assume risk.
    Despite these shortcomings, however, the Afghan Security 
Forces have displayed courage and resilience, and they are 
still holding. The Afghan Government retains control of Kabul, 
of Highway 1, its provincial capitals, and nearly all of the 
district centers. The Afghan Security Forces are effectively 
protecting the principal population centers.
    It is also apparent that our advisory support and financial 
backing are strengthening their resolve and building their 
systems and processes for the future.
    The Afghan National Army and police have repeatedly shown 
that without key enablers and competent operational level 
leaders, they cannot handle the fight alone in this stage of 
their development. Ultimately I am convinced that improved 
leadership and accountability will address most of their 
deficiencies, but it will take time for them to build their 
human capital.
    The Afghan Security Forces' uneven performance this 
fighting season also underscores their shortfalls that will 
persist well beyond this year. Capability gaps still exist in 
fixed- and rotary-wing aviation, combined arms, intelligence, 
and maintenance. One of the greatest tactical challenges for 
the Afghan Security Forces has been overcoming the Afghan Air 
Force's still extremely limited close air support capability.
    Despite a myriad of challenges, the fundamental partnership 
between the coalition and the Afghan Government remains 
durable. The difference between the Ghani administration and 
the previous administration is like night and day. And at every 
level the coalition of Afghan leaders continue to work together 
in pursuit of shared strategic objectives. The Afghan 
Government, civil leaders, and military commanders demonstrate 
a growing appreciation for the coalition's efforts.
    President Ghani has asked NATO and the U.S. to provide some 
flexibility in our planning to account for the fact that his 
government remains in transition while the threats it faces are 
changing. He has asserted that a sustained coalition and a U.S. 
presence provides actual and psychological stability to the 
country as a new government solidifies. He recognizes that his 
new administration must invest considerable time and effort to 
address the challenges of systemic corruption. He has also 
acknowledged that while the Afghan Security Forces are better 
equipped and trained then ever, much work remains to build 
their systems and processes and improve their leader 
development.
    I have offered my chain of command several options for a 
future laydown in 2016 and beyond. It was envisioned in mid-
2014 that we would transition to a normalized embassy presence 
by January 2017. That remains our planning assumption. Since 
that time much has changed. We have seen the rise of Daesh 
[Arabic acronym for ISIL] or ISIL [Islamic State of Iraq and 
the Levant], an increased Al Qaeda presence in Afghanistan due 
to Pakistan military operations, and now we have a strong 
partner in President Ghani and Chief Executive Abdullah. And as 
a result, I have put forward recommendations to adjust to this 
new environment while addressing our core missions of train, 
advise, and assist the Afghan Security Forces, and to conduct 
counterterrorism operations to protect the homeland.
    An upsurge in the insurgent violence in northern Helmand 
and Kunduz shows that Afghanistan is at a critical moment in 
their history. President Obama is well aware of the tenuous 
security situation. And I also appreciate that he has many 
other global issues to weigh as he considers my 
recommendations. My role is to provide him my best military 
advice based upon my assessment of conditions on the ground, 
weighed against the risks both to the force and to the mission.
    I am unable to discuss further details on the options I 
provided to the President. In the past, when flexibility has 
been requested of him, he took it under serious consideration 
and made his decision. He provided flexibility this year. The 
same decision process is being worked through now for 2016 and 
beyond.
    In closing, the challenges before us are still significant. 
In an extremely tough fight, the Afghan Security Forces to 
continue to hold. They have remained resilient and they haven't 
fractured. Fully supported and led by an engaged commander in 
chief in President Ghani, embraced by the Afghan people, and 
backstopped by our military advisors, our resources, and our 
enablers, the Afghan Security Forces' future and Afghanistan's 
prospects for an eventual peace still remain promising. If we 
fail in this worthwhile mission, Afghanistan will once again 
become a sanctuary for Al Qaeda and other terrorists bent on 
attacking our interests and citizens abroad and at home. 
Likewise, if we withdraw from Afghanistan, a security vacuum 
will arise, and other extremist networks such as Daesh could 
rapidly expand and sow unrest throughout Central and South 
Asia, and potentially target our homeland.
    The hard work and sacrifices of countless coalition 
military personnel and civilians over the last 14 years have 
created the conditions in which the Afghans can and are taking 
responsibility for their own security and governance. The 
Afghans welcome the opportunity to share their destiny, but 
they still desire, need, and deserve our assistance. Our 
support cannot and should not be indefinite or unconditional.
    The Afghans must continue to do their part. And if they do, 
we should continue to exercise strategic patience and sustain 
our commitment to them. Working together we can be successful. 
A proactive, cooperative Ghani administration, a committed 
Afghan Security Force, offer us a unique opportunity to further 
develop a meaningful strategic relationship in a volatile but 
vital area of the world. Our continued efforts to stabilize 
Afghanistan will benefit the entire region, and in turn offer 
greater security for the U.S. homeland and Americans abroad and 
here at home.
    Thank you, sir, again for the opportunity to testify before 
this committee. Thank you for your steadfast support of our 
campaign. I look forward to your questions, and, sir, as you 
already said, request that my remarks--written statement be 
taken for the record. Thank you, sir.
    [The prepared statement of General Campbell can be found in 
the Appendix on page 53.]
    The Chairman. Great. Thank you, sir.
    General, there were two statements you made in the early 
part of your testimony that jumped out at me. One was, and I 
will read the sentence back, ``Since 2001, the extraordinary 
efforts of both our conventional and special operation forces 
have ensured that another terrorist attack originating from 
Afghanistan and directed against the U.S. homeland has not 
occurred.''
    You know, I think there is a lot of frustration when you 
read the news from day-to-day about the ups and downs. But I 
think it is really important for all of us to keep that basic 
fact in mind. For 14 years there has not been another attack 
from there directed against our homeland. And I got to tell 
you, on the morning of September 11, 2001, I would have never 
expected us to go 14 years without another attack. And the 
reason it hasn't is because of what you say, extraordinary 
efforts, heroism by men and women who have served there, 
including some members of this committee who have served there. 
So I think it is important to just keep in mind the broader 
accomplishment.
    The other thing that jumped out at me was your comment 
about Afghan casualties. When I was there a month ago, I stood 
next to you at a ceremony where we remembered and honored the 
Afghans who lost their lives. All of us get frustrated when we 
are there to try to help somebody who is not willing to stand 
up and fight for themselves. My impression is, and you can 
correct me if I am wrong, the Afghans are willing to stand up 
and fight for themselves. And they have lost a lot of lives in 
doing that, which is part of the reason that our partnership is 
working better.
    If you want the make a comment on that?
    General Campbell. Sir, you are absolutely right. I mean, 
the Afghan Security Forces, the Afghan people in general, are 
warriors. They want to protect their homeland. The Afghan 
people absolutely think that the Afghan Army, the police, they 
rate them as their number one institution in the country. But 
there is no doubt in my mind that they have the resilience, 
they have the will of character to continue to stand and fight 
to protect their homeland.
    The Chairman. Thank you. General, I just want to ask some 
numbers right quick. I understand you have made recommendations 
to the President. You cannot talk about those. But today we 
have about 9,800 American service members in Afghanistan. 
Correct?
    General Campbell. Sir, that is correct.
    The Chairman. Okay. About how many of them are involved in 
the counterterrorism efforts?
    General Campbell. Sir, if I could take that for record, I 
could get you the exact number.
    [The information referred to is classified and retained in 
the committee files.]
    General Campbell. But roughly we are talking probably 1,300 
of those 9,800 directly day-to-day tied into train, advise, and 
assist [TAA]. It takes a lot to continue to support that, but 
at least 1,300 are everyday what we call level one TAA.
    The Chairman. Okay. I am sorry. So about 1,300 of them are 
involved in day-to-day training and assisting the Afghan 
forces. Does that include the people who are helping the 
bureaucracy inside Kabul?
    General Campbell. Sir, that is inside Kabul and outside 
Kabul. Yes, sir.
    The Chairman. Okay. Do you have any estimate, and I realize 
I am stretching you, but do you have any estimate about how 
many people are in day-to-day contact training and advising 
Afghan forces outside of Kabul?
    General Campbell. Sir, that number is probably about 500.
    The Chairman. Okay. So about 500 American service men are 
really doing what I see as the train and equip. About how many 
are involved in the counterterrorism mission, you reckon?
    General Campbell. Sir, I would rather cover that in a 
closed hearing with you if I could.
    [The information referred to is classified and retained in 
the committee files.]
    The Chairman. Okay. I guess what I am trying to think is, 
if we have some reduction in the 9,800 that are there now, we 
will be able to do less, right, of something?
    General Campbell. Sir, it would limit our ability to train, 
advise, and assist. Yes, sir.
    The Chairman. Okay. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Can you talk to us a little bit, General, about the 
relationship between Afghanistan and Pakistan and the various 
groups that are involved there? And I guess related to that is 
the conversation about reconciliation talks between the Taliban 
and the Afghan Government. You know, first of all, what hopes 
do you have for that? Second of all, no matter what comes out 
of that, there will always be groups on both sides of the 
border that aren't part of it.
    What is sort of your--can you tell us a little bit about 
the groups that would be involved, who might be reconcilable, 
who we might still have to fight, and how the relationship 
between Afghanistan and Pakistan factors into those 
negotiations?
    General Campbell. Sir, thanks for the question. Sir, as you 
know, very complicated between Pakistan and Afghanistan. I do 
try to maintain ties with Pakistan. I talk to General Raheel 
Sharif, the chief of the army in Pakistan, probably once a 
week. I try to get to Pakistan once a month. We really work 
hard to make sure that the Afghans and the Pakistan military 
conduct mil-to-mil discussions to continue to improve upon 
their ability to fight the same common enemy on that border.
    Reconciliation is going to take time, sir. It is going to 
take both Afghanistan and Pakistan working together, although 
President Ghani has said many times that reconciliation will be 
Afghan-led. And he and the rest of the government there 
continue to work that very hard. They have had at least one 
really sanctioned talk on reconciliation that has been out in 
public, and that was back probably in the June timeframe, 
facilitated by Pakistan to bring some Taliban to the table to 
talk.
    Working toward a second talk, but that happened the same 
week that the announcement of Mullah Omar's death. So that kind 
of stopped that talk. I think reconciliation talks will 
continue, but it is going to take some time to bring the right 
people to the table to do that. The Taliban currently are a 
little bit in disarray based on who is in charge. Mullah 
Mansoor is trying to take charge from his perspective, but 
there are a lot of other fragments of the Taliban because they 
do fight really decentralized. But a lot of other factions of 
the Taliban are trying to not follow Mansoor.
    So I think it is going to take a good couple of months 
before we see them coming back to any kind of peace 
negotiations. But Afghanistan and Pakistan both realize that 
there has to be a political solution to this problem, that they 
are not going to kill everybody. I think Afghanistan and 
President Ghani especially has expended a lot of political 
capital the last 6 or 7 months to try to work that with 
Pakistan. He has not seen a lot in return. Therefore, it has 
taken, again, a lot of challenges from within his own 
government, but I think he has been very courageous in how he 
has reached out. I think General Raheel, the same way with his 
leadership, is trying to work that very hard. But, sir, this is 
years and years of mistrust that they are trying to work 
through. But they know that they have to get there to come to 
the solution.
    Your question on who would reconcile and who wouldn't. Sir, 
the estimates that I have heard both from an Afghan perspective 
and probably from the intel community [IC] is anywhere between 
60 or 70 percent is potentially reconcilable. On the Taliban 
side, you probably would not have Haqqani who continues to be a 
very, very--an enemy that is dangerous to both the coalition 
and the Afghan civilians, because they attack civilians. They 
are the ones that are responsible for the high-profile attacks 
in Kabul for the VBIEDs, the vehicle-borne IEDs [improvised 
explosive devices]. Haqqani probably would not reconcile. And 
there are probably members of AQ that would not reconcile. But 
60, 70 percent is kind of the number that is out there, sir.
    Mr. Smith. Okay. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much, and, General 
Campbell, thank you and all of our men and women in uniform for 
the responsibility and also the dedication. You all are very 
special to all of us in America.
    In March when you were here, I asked you a question, and 
this will not be my question. But it leads up to a question. My 
question was, Will there ever be anyone in the diplomatic corps 
or the military who will say to the President: You know, we 
have done about all we can do. And one of your answers back to 
me was this, ``For very little continued investment, we can 
make this,'' meaning Afghanistan, ``the shining light of 
Central Asia and that part of the world.''
    We have spent about $686 billion there since the year 2001. 
You have already mentioned the number who have been killed and 
wounded. Then, recently we had in the newspaper, and you have 
acknowledged one of these, these titles ``U.S. Wasted Billions 
of Dollars Rebuilding Afghanistan.'' That was in the papers 
back in September. Then in October, ``Afghan Forces on the 
Run.'' This was in the New York Times. Also in the New York 
Times, which you have acknowledged, ``U.S. Soldiers Told to 
Ignore Sexual Abuse of Boys by Afghan Military.''
    You know, you, I think, are number 15 or 16. I have been 
here 20 years. A general, Marine and Army, sitting right here 
telling us what you have told us. And I believe you. There is 
no question about that. I believed the other 15 who sat where 
you are today. Then I go back to an email that I got from the 
former Commandant of the Marine Corps, Chuck Krulak. A few 
years ago I asked him, I said, ``General, I don't have the 
military background. How successful can we be in training the 
Afghans to be soldiers and policemen?'' And of course we 
realize there is a problem with education in that country, and 
I understand that. But let me read what he said very quickly. 
``Get real in training an army and police force. All we are 
doing is training eventually new members of the Taliban. 
Trainers are doing a wonderful job, but we don't have the time 
to make--we don't have the time to make an Army.'' And he 
closed by saying, ``Every day somebody dies.''
    My question to you, we are faced with a debt of $18 
trillion. We are going to be debating in about a month a debt 
ceiling increase so we can borrow more money from foreign 
governments primarily to pay the bills for last year. The 
American taxpayer has got to know at some point in time there 
is going to be an end to this investment. Money, blood, there 
has got to be an end to it.
    And I heard something you were saying a while ago, and this 
is going to lead to the question. At some time I have been 
hearing for 15 years from the generals like yourself that 
training the Afghans to be policemen and security forces, it is 
going pretty well. It is a little fragile, but it is going 
pretty well. It has been going pretty well for 15 years. That 
is not a criticism. I am just making an observation. We at some 
point in time as a Nation and Members of Congress have got to 
understand that we cannot continue to, as John Sopko says, 
waste, fraud, and abuse is worse today than it was 15 years 
ago. That is not your responsibility. I understand that.
    But this thing has got to have an end to it. Is that when 
the security forces can say: We don't need any advisors from 
the coalition forces or the American military? Will you give me 
some idea of how this thing is going to end the best you can?
    General Campbell. Sir, thanks for the question. Sir, if I 
could correct the record first, you said I acknowledged that we 
ignored the abuses. And that is not what I said. We do not--I 
do not--and in my statement I said that we have policies to say 
you do not ignore the abuses. You report the abuses through 
your chain of command. So I would like to correct the record 
there if I could for what you just said.
    Sir, again, on the financial piece and the continued 
support to the Afghan Security Forces and to Afghanistan and 
the people, you know, yesterday was 14 years. So it has been a 
very, very long time. But as the chairman said, we have not 
been attacked. Sir, we live in the world we have. Maybe not the 
world we want, but it is the world we have. And this world is 
going to continue to be a very dangerous world. We are going to 
have people that want to continue to do harm to the men and 
women here back in the United States. And I think, as I said 
earlier, and I would say for a modest continued investment, and 
we can protect not only our homeland but continue to build----
    The Chairman. General, I apologize for cutting you off, 
particularly after a 4-minute question. But we have limited 
time and numerous members. If you ever want to extend your 
answer in writing, please feel free to do so. But we are going 
to have to try to keep to the time limits today.
    Ms. Sanchez.
    Ms. Sanchez. Mr. Chairman, I for one appreciate the 4-
minute question. Thank you, Mr. Jones, for reminding this 
committee what is happening in Afghanistan. So it has pretty 
much been a failure.
    General, do you know how many people we have recruited and 
trained over the years for the Afghan Army and police forces?
    General Campbell. Ma'am, currently today we are authorized 
to have 352,000. That includes the army----
    Ms. Sanchez. No, no, no. I am not asking you what you are 
authorized as far as billets. I am asking you how many people 
have we paid on the payroll to be, over these 14 years, in the 
Afghan Army and police?
    General Campbell. Ma'am, I will have to take that for the 
record. I don't have that answer. The army really----
    [The information referred to can be found in the Appendix 
on page 75.]
    Ms. Sanchez. Okay. You can stop. I have only got 5 minutes. 
So I have plenty of friends in Afghanistan who have gone over 
there. You know, we have phantom people on the rosters. We have 
60-year-old men, uneducated, signed up for these Afghan forces. 
We have tons of people we are paying that aren't even showing 
up for work. This has been going on and on and on.
    Of those 360,000 billets that you say we have, how many are 
filled today, General?
    General Campbell. Ma'am, the police are authorized 157,000. 
They have about 156,000 that are filled today. The army are 
authorized 195,000. There is probably in the area of 173-, 
174,000 that are filled today.
    Ms. Sanchez. Okay. I think it would be important to get 
that number of how much we have spent training these people.
    You said in your testimony, ``I remain concerned about the 
long-term viability of the Afghan National Defense and Security 
Forces.'' Succinctly, Afghanistan cannot afford its security 
forces. You mentioned that 90 percent of paying for these 
forces are from the coalition, and the majority of the money is 
coming from the U.S. So within your own current testimony, let 
alone the testimony that Mr. Jones brought before you from 
before, you basically are saying: I don't know that there is a 
long-term viability for these security forces. We are paying 
the majority of that. How much is the--how much money does that 
mean to have a force that you don't believe has a long-term 
viability?
    General Campbell. Ma'am----
    Ms. Sanchez. How much? How much? That is the question. How 
much?
    General Campbell. Yes, ma'am. Today for calendar year 2015, 
United States put $4.1 billion to build the Afghan Security 
Forces. For 2016----
    Ms. Sanchez. $4.1 billion.
    General Campbell [continuing]. $3.86 billion.
    Ms. Sanchez. Thank you. $4.1 billion.
    General Campbell. Every year we will continue to reduce 
that by gaining efficiencies. We are not providing----
    Ms. Sanchez. General, I have heard this. I have heard this 
for 14 years. We are going to get better. It is going to be 
more efficient. We are getting there. You know, the reality is 
that we are not. We are not. I mean, Mr. Jones was right.
    My next question for you is, operationally, what is our 
strategy in Afghanistan? What is our strategy? I heard the 
chairman, we haven't had 14 years of attacks coming out of 
Afghanistan. I will remind the chairman, instead they went to 
Somalia. Instead they went to Yemen. Instead they went to Iraq. 
Instead they went to Syria. Instead they went to Libya. So, you 
know, we can say we have concentrated our forces and our monies 
in one place. But the reality is, and you and I both know this, 
they move. So what is the plan for Afghanistan?
    General Campbell. And the plan is to continue to build the 
Afghan Security Forces so they can protect the Afghan people, 
to have a stable government so they can provide for the Afghan 
people, so the Afghan people can have jobs, their kids go to 
work, that they can be a viable country and----
    Ms. Sanchez. Thank you. Thank you. So $4.1 billion this 
year. You don't believe it is a long-term viable strategy. Let 
me ask you one last question before my time is up, General.
    Oh, and by the way, I just want to say I just have a son 
who will be full-time in the U.S. Infantry. We just found out. 
I love our forces. I think they are doing a good job. I am 
talking about what we are doing as policymakers. Did we ever 
find out how much money Karzai and his cronies stole, and put 
in Swiss banks?
    The Chairman. General, if you want to provide that for the 
record. Again, we are going to try to keep to the time limits.
    [The information referred to can be found in the Appendix 
on page 75.]
    The Chairman. Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you for this hearing. 
General, thank you for your service. You were educated at one 
of the best military academies we have in the world, West 
Point. You have not just served, but you have commanded for 35 
years, leading men and women defending this country. You have 
commanded in Germany, Haiti, Iraq, Afghanistan, and the United 
States. You get to see with a set of eyes that few of us ever 
get to be able to look through. It is very easy for people to 
come in here and recount the price tag we paid in Afghanistan. 
That is pretty easy. And there are people across America who 
ask what Mr. Jones asked: For what?
    What I am going to ask you today is if--because as I look 
at your testimony, you have told us kind of what would have 
happened if we hadn't have been there. And you said in 2015 Al 
Qaeda has attempted to rebuild its support networks and 
planning capabilities.
    Could you paint two pictures for us today? One, taking all 
that experience you have, give us in your best professional 
military judgment the danger to the United States homeland and 
the risk of loss of life in the United States had these 
individuals not made the sacrifices that you talked about and 
that we as a Nation not made those sacrifices. And then also in 
your best professional military judgment, paint a picture for 
us of the danger to the United States homeland and the risk of 
loss to the life in the United States if we pull out and do not 
continue to make those kinds of investments and sacrifices.
    General Campbell. Sir, thank you for the question. Sir, 
again, we have been so fortunate in our country we have brave 
men and women that continue to join an organization that is not 
about them but about the greater good. I think all of our men 
and women understand that piece of it. Without their great 
sacrifice and the sacrifices of their families, the people back 
here in the homeland, the people in Europe, would be at much 
greater risk of terrorist attacks. I mean, there is--I don't 
think there is any doubt about that. I think in the future as 
we move forward, you know, we have a lot of talk about ISIL in 
Syria and Iraq. We have a lot of talk about Daesh growing up in 
Afghanistan. If it is not Daesh in 2 years, it is going to be 
something else. This is a generational issue. Terrorism knows 
no boundaries. So if we think that this is going to be cleared 
up in a couple years, we are fooling ourselves. And we have to 
position ourselves to ensure that we can do everything we can 
to mitigate this impact. And the way to do that is continue to 
apply pressure with the great special operating forces [SOF], 
the great men and women that we have in all of our services, 
and also to build the CT [counterterrorism] capability of 
Afghanistan and the other countries in the region so they can 
take that on themselves. And without that, the homeland would 
be at much greater risk.
    Mr. Forbes. And, General, if you could, give me a little 
specificity. When we talk about a greater risk of terrorism 
that can be kind of a general term. But if we hadn't had been 
in Afghanistan, if we hadn't had done this, how would it have 
strengthened their hand? How would they have had a greater 
opportunity to strike the United States and to do harm to us 
here at home?
    General Campbell. Sir, they would have had sanctuary to 
continue to plan and devise ways that they could attack the 
homeland, they could attack Europe. There is no doubt, I think, 
in anybody's mind that there are people out there that want to 
do harm to people throughout the world. And this terrorism will 
continue for years to come. And we have to continue to do 
everything we can to prevent that. And the way to do that is to 
continue to keep pressure on it.
    Mr. Forbes. Thank you, General. Thanks for your service and 
for the sacrifice that the men and women under you have made 
throughout the years.
    And with that, Mr. Chairman, I yield back.
    General Campbell. Thank you.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. And, General Campbell, 
thank you for your invaluable service to our country, and all 
your sacrifices.
    You mentioned in your testimony that our support is not 
unconditional. And I wonder if you could tell us within the 
context of the relationship that you have built with President 
Ghani, which is really a quite extraordinary one, and in some 
ways I guess you would say you are fortunate that you have a 
willing partner. Tell us more about what we could, should--
where have we actually put--used our leverage, and, clearly, 
you know, the fact that they can't really afford their own 
military and we need to be there on their behalf, what could we 
be doing, what have you seen that has helped to direct, to 
provide the impetus to move forward in governance that is 
really important?
    General Campbell. Ma'am, I have seen it really at my level 
through MOI and MOD, Ministry of Interior, Ministry of Defense, 
where everything that we do is based on conditionality. They 
sign letters of commitment because we appropriate and move the 
money around based on different conditions. So we asked them--
there are certain gates they have to be able to do. And if you 
don't do this, we are going to hold this. If you don't do this, 
we are going to do that. And what that is, is a change of 
behavior. You know, for many, many years, if the Afghans needed 
this, we would provide that to them. And what we need to do now 
to make sure they are not very, very dependent upon that, we 
have to break that. We have to change behavior. And I think by 
putting conditionality on the money at the MOI and MOD level we 
are able to do that. At the presidential level, and we are very 
fortunate we have President Ghani and Dr. Abdullah in a unity 
government that wants to work not only with the U.S. but the 
entire international community. The conditionality of getting 
after corruption. So President Ghani personally chairs a 
national procurement meeting every week that he looks at 
contracts and he has a board that does that to get after 
corruption. And we have asked him to go after that. We have 
asked him to make some tough choices as he and Dr. Abdullah 
work on governors and provincial police chiefs and in naming 
the right leadership and picking leadership based on merit, not 
based on pay patronage or who they knew. And so those are ways 
we can help with the governance level as well to put those kind 
of conditions as we move forward.
    If I could add, ma'am, President Ghani welcomes 
conditionality.
    Mrs. Davis. Has that been effective in just moving some 
discussions as well with even Pakistanis as we move into, you 
know, negotiations at some point with the Taliban? I mean, is 
there anything that we have seen with that conditionality that 
has kind of pushed that situation along?
    General Campbell. Yes, ma'am. On the Pakistan side I think 
it was noted a couple months ago that both State Department and 
Department of Defense work every day with Pakistan to look at 
how they can continue to do more to fight terrorism and how 
they can go after Haqqani, how they can do things that enable 
their forces and their people to be safe, but at the same time 
not destabilize Afghanistan. And so I think there are 
conditions that we can use with Pakistan there.
    Mrs. Davis. Are we able to do that as well in talking about 
the constitution and the ability to not withdraw, I guess, from 
that human rights issues? How have we been effective with that? 
And what--I guess what else needs to be done as we move forward 
to ensure that those issues are dealt with?
    General Campbell. Ma'am, I think if I saw that we needed to 
apply conditionality to something like that I would absolutely 
do that. When I went to President Ghani on the abuse of sexual 
children, he absolutely got that and said: We have a law. Our 
constitution covers that. But I will reinforce that. I will 
make sure that all of my security forces understand that. And 
if he didn't do that, that would be something I can go back and 
say: Mr. President, if you don't do this, we need to look at 
that. But I didn't see that in that case. And we will continue 
to work very hard. But, again, President Ghani and Dr. Abdullah 
welcome the conditions. It makes them tougher. It makes them 
accountable. And they understand that the money, not only the 
money, but the blood, sweat, and tears, the ultimate sacrifice 
that all the nations have provided, that is special to them. 
Not only their own that have been lost, but the international 
community. So they welcome conditions and they want to make 
sure that we understand that they are very appreciative of 
that. And so unlike where we were, you know, over a year ago 
without the national government, we are in a completely 
different place.
    Mrs. Davis. And you have all the authorities that you need 
or no additional help from the Congress to do that.
    General Campbell. Ma'am, I am comfortable with the 
authorities I have today. Yes, ma'am.
    Mrs. Davis. Okay. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman.
    General, in 2014 a decision was made to have a troop level 
of 9,800. And my question I think is simple, but it may not be. 
And the question is, is the security situation in Afghanistan 
better or worse today. And if it is not better than it was 
then, how in the world could we even entertain talking about 
troop levels of 5,000 or 1,000?
    General Campbell. Sir, again, in 2014, the number of U.S. 
forces, coalition forces, we had verse what we have today is 
different. So the security on them, I think, is one thing 
because unfortunately we have lost some great men and women 
over the last year, even with Resolute Support. But I think we 
have balanced that based on the number of people we have had 
there and the security and looking at the force protection.
    From an Afghan perspective, you know, again, this has been 
a very, very tough fighting season, and they knew it was going 
to be a very tough fighting season, and the Taliban knew 
because we were redeploying, because our numbers were going to 
go down, because they didn't have the same amount of close air 
support, they would try to send a message. And so not having 
close air support like we had it in the years past emboldened 
the Taliban in some places to go ahead and attack in large 
numbers that we hadn't seen before. But, again, the Afghan 
forces I think have stepped up for the most part. They have 
made corrections.
    They are resilient. There have been some setbacks like in 
Kunduz and Northern Helmand. But unlike Iraq, and people try to 
compare Iraq and Afghanistan, and they are not the same, the 
Afghans have planned, have reorganized, have resupplied, have 
put the right leadership in place and continue to fight and 
protect the people, but overall if you take the number of 
security attacks and then compare it from 2014 to 2015, it is 
very, very difficult because, again, we are not out there in 
the numbers we were before. But it has been a very tough fight, 
sir, on both sides.
    Mr. Miller. And I will yield the balance of my time to Mr. 
Turner. But I have one comment to make. And it is a plea. And I 
know you can't discuss the gunship incident in Kunduz, but I 
would plead with you, sir, please don't let the crew of that 
aircraft nor those Americans that were on the ground that 
guided that fire where they did become scapegoats.
    General Campbell. Sir, I will look--we have an 
investigation, sir, as you know, and the investigation will 
give me the facts. And I will make sure the committee has all 
of that as we learn more.
    Mr. Miller. Thank you, sir. To Mr. Turner.
    Mr. Turner. Thank you, Mr. Miller. Thank you, Mr. Chairman. 
I want to echo Mr. Miller's comments. I think everyone is very 
concerned about that investigation and how it--and that those 
who certainly had no involvement in a mistake, no culpability 
in mistake not have consequences.
    General, you and I had a conversation about the 9/11 
Commission Report. When we first got the 9/11 Commission Report 
delivered to this Congress, it had a chapter in it, chapter 12, 
that detailed what we needed to do in the future and what we 
shouldn't do. It specifically said that our fight was not 
against Al Qaeda and Osama Bin Laden solely. And if we viewed 
our fight as that, that we would lose. That it was Islamic 
extremism and worldwide terrorism. When we look at Iraq, it is 
clear that we have not heralded chapter 12 because we have seen 
ISIS take hold and now threaten our homeland. You have made 
recommendations that we continue to hold troops in Afghanistan. 
You have both ISIS [Islamic State of Iraq and Syria] and 
Daesh--ISIL and Daesh now there.
    Could you tell us if you did withdraw our troops down to 
the level of 1,000, its effect on both the safety of our troops 
and the ability of our effectiveness for counterterrorism 
actions in Afghanistan?
    General Campbell. Sir, if we came down to 1,000, the 
embassy presence as you just discussed, there is no 
counterterrorism structure force in those numbers. And then if 
you draw down to that size in one location, you are solely 
dependent upon the force protection for that particular site 
by, with, and through outer layers that we would not have that 
we have had in the past. I am not sure if that answers your 
question.
    Mr. Turner. It does, which it totally cripples our ability 
to undertake those actions. Now also when you withdraw to those 
level of forces, aren't the forces that are left behind at a 
greater risk without a larger footprint?
    General Campbell. Sir, they are in one location. The enemy 
would know where they are at. But we would do everything we can 
to make sure we mitigate, again, force protection number one 
concern for me. As we continue to draw down, every commander 
would make sure they do everything they can to ensure the right 
force protection. It would be higher risk.
    Mr. Turner. Isn't it a fact that they entered the country, 
the effects of your ability to counter Daesh as they entered 
the country?
    General Campbell. Sir, again, at the thousand number, at an 
embassy presence, there is no CT allocation in that.
    Mr. Turner. Thank you. Thank you, Mr. Chairman. Thank you, 
Mr. Miller.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. Thank you, General, 
for your service and testimony here today. You have probably 
one of the most complex missions, I think, almost you could 
possibly even imagine. So, again, we really appreciate your 
efforts.
    And, again, I want to associate myself with Mr. Miller's 
remarks about the investigation. I think it is also important 
to underscore, when you are talking about Doctors Without 
Borders, I mean, it was almost exactly a year ago that they 
were working hand in hand with our military in Africa taking on 
the Ebola challenge. They are a valuable international 
resource. And that is why I do think this requires the absolute 
top level of scrutiny and independence in the investigation.
    I would like to just turn for a moment again on your 
comments regarding the Afghan Security Forces which at the end 
of the day I really do think is the kind of the, you know, the 
linchpin in terms of a strategy to hand off, you know, power 
and security in that part of the world. In particular, the ALP 
[Afghan Local Police]. You made sort of an interesting comment 
in your testimony about how they were misemployed. And clearly 
when we are talking about corruption issues and the need to 
sort of root out corruption, I mean, they frankly have been a 
big topic of conversation, again, not with just sort of knee-
jerk critics of U.S. forces over there, but frankly even people 
who want to help the mission.
    Can you talk a little bit about where President Ghani is in 
terms of the ALP, and, you know, because, again, the criticism 
is they have kind of gone rogue out there a lot. And there has 
been complaints within the civilian population about how they 
operate.
    General Campbell. Sir, thanks for the question. We have 
looked at the ALP or the Afghan police very hard here the last 
several months. They are authorized about 30,000 in 174 
different districts in Afghanistan. And they belong to the 
Minister of Interior on the police side. What Minister Ulumi 
has done here recently is assigned a new directive to go back 
out to all the provincial police chiefs to make sure that they 
have done all the right vetting, all the right training, they 
have got the right leadership in place. And that they don't 
misuse them.
    So in some places ALP even put out in smaller checkpoints 
5, 10 kilometers from a village. And what they were designed to 
do is be sort of that village security, that stabilization 
there, and when they get taken out 5 kilometers, 10 kilometers 
without any mutual supporting fires, without other support, 
reinforcing support, then they become easy targets for the 
Taliban and other insurgent groups.
    So not only because of that and the casualties they have 
taken, not only that because they do have potentially some 
issues with leadership taking advantage of that, he has done a 
holistic scrub of the ALP, and he has continued to try to force 
the provincial police chiefs to meet all the same standards 
that we have had in place. And in some places they haven't done 
that well. So he has re-energized that. We are working hard 
with him to do that.
    This past weekend he had all the provincial police chiefs 
back into Kabul, and the entire conference was on ALP and how 
to make sure we don't have some of the issues that you just 
talked about, sir.
    Mr. Courtney. I mean, I think that would send a powerful 
message that there is real change happening if there is reforms 
that the government can really talk about.
    General Campbell. And, sir, as Ms. Davis talked about, one 
of the things on conditionality, we have really put 
conditionality on the ALP. So if they don't get through with 
the reforms, they don't abide by all the vetting procedures, 
then we don't pay. So that is a condition that we put on them.
    Mr. Courtney. Seems like a pretty good leverage. So thank 
you, General. I yield back.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And I am very grateful 
to see largely general bipartisan support of your efforts.
    I have had the great opportunity 12 times over the years of 
my service in Congress to visit. I have seen a civil society 
develop. It is just so inspiring to go along streets and see 
little girls with white scarves going to school, carrying 
books. It just warms your heart, and then to see little guys 
with baseball caps. That is not indigenous to Afghanistan. 
These are people who are truly working to develop a civil 
society, and I just want to thank you.
    It is also very personal, my appreciation of your service. 
My youngest son, Hunter, served as an engineer for a year in 
Afghanistan, and I just know he was making a difference by 
helping build that country, rebuild--begin from the beginning, 
to protect American families at home, and you have.
    Additionally I am very grateful as a veteran. My unit, the 
218th Brigade served there under General Bob Livingston, our 
adjutant general. It was the largest deployment from South 
Carolina since World War II, 1,600 troops, and they were spread 
all over the country. And they were helping train forces, and 
they were so inspired. These are lifelong friends of mine, and 
they would really let me know what they think; and they think 
and know that they were working with who they identified as 
their Afghan brothers.
    And I regret so much that--hey, I can remember the first 
time I went to Afghanistan with Sheila Jackson Lee. She pointed 
out that bad news has no feet--excuse me; what is it--good news 
has no feet and bad news has wings. And wow. But the good thing 
is that extraordinary progress has been made. And I agree with 
the chairman, too, that success in Afghanistan is to deny 
terrorists safe havens, which protects American families.
    And that we cannot forget it was September 11, 2001, the 
attacks on our country, they were actually originated, planned, 
and culminated from caves in Afghanistan. So I am just very 
appreciative of your efforts and the largely bipartisan support 
we have here. With that in mind, with the special operations 
reliance of support from conventional forces, if conventional 
forces are reduced as has been called for, how can special 
operations fill in this gap?
    General Campbell. Sir, today we continue to tactical level 
train, advise, assist with special operating forces. They 
continue to build the Afghan capacity, and they do a tremendous 
job. We don't have the conventional forces at the battalion or 
brigade level. I only have them at the corps level, four of the 
six corps and at the ministry level, so we are not really doing 
that much with the conventional side. But our special operating 
forces continue to do great, great work every single day, sir.
    Mr. Wilson. Well, with your leadership. I appreciate it. 
Additionally I am concerned about the information intelligence 
sharing between the U.S. and Afghan national defense and 
security forces as it leads to operations in Afghanistan. Can 
you speak of whether it is necessary to improve the 
coordination cells and advise and assist cells throughout the 
country?
    General Campbell. Sir, we have a dedicated effort, what we 
call an Essential Function 7, which is strictly intelligence 
and how we work with the MOI and MOD to not only share 
intelligence, but at the same time build their intelligence 
capability, their enterprise. I think we have made some great 
strides there. This year they have recently established what 
they call the Nasrat Center, which is basically a national 
intel fusion cell that brings in intelligence from the MOI, the 
MOD, the NDS [National Directorate of Security], their intel 
organization. It has produced national level targets. They 
never had that before, and the difference that that is making 
is pretty huge. But I think we continue every day to build upon 
their capacity, and we have seen some great, great progress in 
some of the operations based even at the tactical level on the 
intelligence structure, and not only in the hardware side, but 
also in the human capital side for intelligence.
    Mr. Wilson. And that is so important to prevent collateral 
damage which, of course, is your goal. As I conclude, again, I 
am just so grateful for your service, for the service of 
American military personnel. I having been there, have seen, my 
first visit there, the country was totally destroyed. It was 
the consequence of a 30-year civil war. There was nothing 
really to see except rubble, and then to see the rubble 
removed, the streets paved for the first time, to see little 
shops develop, to see opportunity for schools, for bridges to 
be built, and we sent units to work on agriculture to advance. 
Thank you very much. I yield my time.
    General Campbell. Thank you, sir.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman, and thank you, 
General, for being here today. I appreciate very much your 
testimony, and like so many, all of us here, and like many 
Americans, I was so alarmed to learn of the tragedy at the 
Doctors Without Borders facility in Afghanistan, and I look 
forward to your investigation and a hopefully very transparent 
one but appreciate how serious you are taking this.
    But I wanted to go to a different place in questioning. As 
you are wrestling, General, with how best to enable Afghans to 
secure their country and what kind of support is necessary to 
aid them in that effort, I'd really like to hear more about 
what you are doing to ensure that Afghan women, 50 percent of 
the country's population is part of your process?
    I have been part of a delegation, at least six trips over 
that focused on one visiting with our women who have so ably 
served us and for whom we are all so grateful, but also with an 
emphasis on learning more about the changes that our presence 
has wrought in the lives of Afghan women. And it has been very 
promising.
    Over and over again we hear the real differences that have 
taken place, and I remain concerned that whatever our way 
forward may be, how best we secure those gains, that we don't 
trade them away in a reconciliation process. That we don't 
adequately train Afghan national security forces, whether it is 
the local police, the national police, whatever it may be, 
because it obviously requires a culture change, and that 
culture change has begun, but it is very fragile.
    So I would like to hear in your work with the train, 
advise, and assist, with the security forces, how you address 
the rights of women so that the security forces who hopefully 
will remain in place to secure the future life of their country 
also are committed to securing the lives of the women who are 
very much a part of their country?
    General Campbell. Ma'am thank you. Thank you for the 
question. Every day President Ghani, Dr. Abdullah, they speak 
of this. I think with their leadership and our continued train, 
advise and assist, that the future for engaging women in the 
military both on the police side and the army side continues to 
improve, and they put more of a spotlight on it, and we 
continue to assist. And this committee with some earmarked 
money has helped us really emphasize not only infrastructure to 
house, to take care of women in the military, to protect them, 
I think it has been pretty critical. So we are very thankful of 
that. I have a women's advisory committee that I co-chair with 
Ms. Ghani that meets quarterly to talk about different issues. 
At my level, her level we meet quarterly, but the committee 
meets probably weekly. In fact, Ms. Ghani over the last month 
or so has been meeting weekly to really push some issues with 
the army, and that is very, very good. As you know, for the 
police it is a little bit easier as you recruit women into the 
police. They go through training. They can serve from where 
they are at.
    Ms. Tsongas. But General, the question I am asking really, 
yes, I think it is very important that the security forces, the 
local police, whatever, reflect the population. And I 
appreciate the efforts, especially Congresswoman Davis, in 
terms of making sure that we at least provide some element, 
female presence in the Afghan national security forces. But the 
reality is most of those forces are men, and they have had a 
certain cultural--historic approach to women; so it is really 
about how we train the men to protect the rights of women, and 
I am curious as to how that piece is moving forward.
    General Campbell. Ma'am, they do some of that in their 
session training, their officer training, their basic training, 
about rights of not only women, but men. So I think they are 
continuing to work that. It is about education. It is about 
training. It is holding people accountable, and I think they 
continue to get after that. I think as they see more women in 
positions of increased responsibility, they see more women that 
are tied in with the special operating forces which they have 
women that do that with them to help go on objectives, to 
search other females, it is actually pretty incredible.
    When the other men see this and how that they contribute, I 
think it does have a change in attitude. But as you know, the 
army, the police, have only been around for a couple of years. 
It is going to take time as we move forward. We do put 
conditions as well on recruiting women, how they do that, and I 
think it will continue to improve. But as you said, it is going 
to take time. And it took time for the United States Army that 
has been around for 240 years to get above 15, 16 percent at 
West Point. This is something they are focusing on and with the 
leadership of President Ghani, Dr. Abdullah, I see good things 
for it.
    Ms. Tsongas. And you have spoken of conditionality, how you 
use that as leverage to achieve certain goals that there may be 
some resistance to. Is that a tool in your tool box as you move 
forward?
    General Campbell. Yes, ma'am. Absolutely.
    Ms. Tsongas. Thank you. I yield back.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you. General, thank you for being here. 
You mentioned in your opening remarks about your families and 
the role they played. You thanked them, and I want to make sure 
they hear that same kind of thanks and heartfelt admiration for 
what they have done and how steadfast they are in allowing you 
and your team to do what you do. So thank them very much on our 
behalf.
    The recent experience in Kunduz with the attack, the 
Taliban, what can we glean from what the Taliban did, what 
tactics and procedures, TTPs, they used, and then the Afghan 
response, was it all, you got to give a grade for that. Walk us 
through that, and what kind of advice and assistance did we 
provide them in that response, or was it all organic?
    General Campbell. Sir, thanks. Thanks for the family piece 
as well. In Kunduz, quite frankly, the Afghan Security Forces 
were surprised. President Ghani has directed a commission to 
take a look, sort of an after-action, to figure out exactly 
what happened. They are continuing to work that now. But in a 
nutshell, Kunduz has about 250,000 people in it. Predominantly 
inside the city is police. Outside the city there are pockets 
of the army.
    Over the period of Eid, a holiday, many of the senior 
leadership of the police and some of the army were not present. 
The Taliban probably had a lot already inside the town, but 
right after that time period, they attacked from within the 
city. The police fought, although they did not take a lot of 
casualties, and when they didn't see reinforcements from the 
army, they kind of melted out. I don't think the Taliban had 
any intentions to continue to hold Kunduz, but they got a great 
IO [information operation] victory going in there, raising 
their flag. The difference though here I think is that the 
Afghan Security Forces responded very quickly. They got the 
right forces up there. They moved a lot of logistical 
resupplies up there.
    They changed some leadership out, and once they got right 
back into the city, the Taliban for the most part left. There 
are and today continue to be isolated pockets of resistance and 
fighting. A very small group inside of an urban area can hold 
up battalion's worth of people, but they continue to work that 
very hard. I talked to Minister of Defense Stanekzai this 
morning right before I came over here. He was in Kunduz earlier 
today and told me that he sees great progress as they move 
forward. He still said fragile in Kunduz, but he is very 
confident that all the major areas of Kunduz they own.
    What did we provide, sir? For the most part this was 
Afghan-led. They got themselves back into the city. I had a 
couple of special operating teams that were south of the city 
that provided some planning, training advice for the special 
operating forces. And then I also put in what we call an 
expeditionary advisory team into an airfield south of Kunduz so 
they could provide the corps-level headquarters some logistical 
planning capability to oversight the Afghans.
    Mr. Conaway. Thank you. Ghani and Abdullah have been in it 
for about a year now. What kind of marks would they get for 
running the trains on time, water, electricity, all the kind of 
things you expect in governmental services, and what does that 
tell us about the conversation that is out there that it is a 
fragile government, that it is likely to not be able to be 
resilient? Can you talk just about those two issues?
    General Campbell. I think if you are in Kabul, for the most 
part you would give them probably a C. Although with high-
profile attacks inside of Kabul that would be lower. I think if 
you are on the outskirts, you are in a faraway province, 
faraway district, your grade would be much lower because they 
haven't seen some of the governance they need at that level. 
But, again, they have been, the national government on the 29th 
of September--that was a year. They continue to move forward. 
It is a very, very tough environment, but they continue to 
improve. They have made change in almost all the ministers. 
They have changed out most of the governors. They have some key 
positions that they have to continue to work on together.
    On strategic level policies that Afghanistan has tied into, 
both Ghani and Abdullah, I think there is no daylight between 
them. I think the issues they have is when they come to picking 
people and who is going to be the minister, who is going to be 
the potential police chief. They understand how important that 
is, and I think they will continue to do everything they can to 
make this work, but they do have to engage better with the 
Afghan people, not only in Kabul, but outside the city, much 
better.
    Mr. Conaway. From the time we have got left, can you give 
us from your perspective, the international community's 
continued financial support is going to be key obviously. It 
has already been said: they can't already afford the forces 
they have got. Can you talk to us about the expected or what 
you see as the international community's heart to stay in the 
fight?
    General Campbell. Sir, thanks. Sir, I don't think right now 
we have donor fatigue. I think that the international community 
understands how important this is. Next year at the Warsaw 
Summit, I think July of 2016, they will look at funding for 
2018, 2019, and 2020, so that will be critical.
    I think Afghanistan has to continue to show progress as 
they move forward so they keep donor support, but that donor 
support is absolutely crucial because Afghanistan cannot afford 
what they have now. They are working it very hard. President 
Ghani is the right guy to do that with his experience, but the 
economic environment is going to be very tough.
    Mr. Conaway. Thank you, General.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman. General, first I 
want to thank you for your service and your leadership, and 
through you I want thank all the men and women who are 
currently serving in Afghanistan and who have served in the 
past.
    I want to ask you a couple of questions about the bombing 
in Kunduz, or the attack on the hospital in Kunduz, and I 
recognize that there is an investigation ongoing, but I want to 
ask you per your knowledge why the Afghanistan National Army 
called that strike at that location?
    General Campbell. Sir, again, that is a question that we 
are asking, sir, in the investigation. I wouldn't want to get 
out in front of the investigation. I need to learn those facts 
from the investigation. There is a DOD [Department of Defense] 
investigation, a NATO investigation. The Afghans are doing an 
investigation. It will be very thorough, very transparent, and 
as soon as I get those details, I will make sure the committee 
has those.
    Mr. O'Rourke. Is there ever a scenario where it is okay to 
strike a hospital?
    General Campbell. Sir, a hospital is a protected facility. 
We would not target a hospital. If I can go back maybe to the 
first part of your question and maybe get at what you are 
talking about here. When the Afghans call for fire, that is not 
an automatic response. Every day the Afghans ask me for close 
air support, and we just don't go fire someplace. It has to go 
through a rigorous procedure to put aerial fires on the ground, 
a U.S. process under the U.S. authorities. And so we have got 
to figure out what happened in that case. I don't want the 
people to think that just because the Afghans call fire, that 
there is automatic fire anywhere they want it. That is not the 
case.
    Mr. O'Rourke. My last question on this is, are you aware of 
press reports within Afghanistan that that hospital was 
treating Taliban and non-Taliban combatants alike, which raised 
the ire of the Afghan national forces who had conducted a raid 
at that hospital days before or weeks before that strike?
    General Campbell. I have seen the reports about Taliban 
treating in the hospital but that is----
    Mr. O'Rourke. That would not be a justification for a 
strike on the hospital?
    General Campbell. No.
    Mr. O'Rourke. Okay. A related question and one that I think 
you can speak openly about, can you talk about the terms of our 
security agreement with Afghanistan and under which conditions 
we can use lethal force? And I understand there are exceptions 
for counterterrorism activities. There are exceptions for when 
U.S. forces are under attack, and there are exceptions for 
urgent situations. Can you characterize our involvement in 
Kunduz under those exceptions or others that we may not be 
familiar with?
    General Campbell. Sir, again I am not going to talk about 
Kunduz or what happened in Kunduz, and any time we talk about 
in detail on authorities or rules of engagement, I would not do 
that in a public hearing. I would be glad to discuss that with 
you in a closed hearing, sir.
    Mr. O'Rourke. This might be my last question. How do you 
balance the need to ensure that we are adequately supporting 
the Afghan Army, not abandoning them, and continuing with the 
train, assist, and advise operations, and not at the same time 
creating a prolonged moral hazard where they know that U.S. 
support will be there year in, year out, and they may not make 
some of the difficult political decisions, investment 
decisions, in their own armed forces and capabilities, 
decisions with accountability for their leadership, that 
otherwise might be made?
    General Campbell. Sir, that is a great question. And I 
think we work that very hard every single day. We do--they 
know, and that is why fighting season 2015 was completely 
different. I said up front you can't compare it with other 
fighting seasons. The number of forces we had, the level that 
we had people at, where we do train, advise, and assist, made 
this very different. The ability for us to provide close air 
support like we had in the past was very different, so there is 
no doubt in my mind.
    There is no doubt in the senior military that I deal with 
on the Afghan side that it is different, and they have to pick 
up the fight. They have to want this more than we want it. So I 
have seen a change in behavior on that. I don't see that as an 
issue. What I think they are looking at now is how long will 
our continued support from the international community and the 
U.S. be there, and a decision to continue to provide support 
would make a huge impact in supporting President Ghani, 
supporting the Afghan people, supporting the Afghan Security 
Forces. The impact that would make on the Taliban and the 
message it sends to them, the message it sends to Pakistan, and 
the message that it sends to NATO I think are pretty huge as 
well, so decisions here upcoming as we look forward would have 
an impact on all of those audiences.
    Mr. O'Rourke. Quick question. When will we likely get the 
results of your investigation of the Kunduz attack?
    General Campbell. I talked yesterday with the investigating 
officer. He is working it very hard. I should have some 
preliminary investigation results here in the next--yesterday I 
was asked, and I said within about 30 days. I don't have an 
exact date, but as soon as I get those I will make sure I get 
that to this committee.
    Mr. O'Rourke. Thank you. I yield back.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. General, thank you for 
being here. Just a couple of quick questions. Then I want to 
specifically get to the close air support capabilities. But 
Harry Reid has promised earlier this week to uphold the 
President's veto of the NDAA [National Defense Authorization 
Act], and the President has not vetoed that legislation yet. I 
wonder if you and the other leaders of our military have had 
the opportunity to speak with the President about the 
importance of the NDAA since it has passed? And how do you 
assess the additional risk if that bill is vetoed and the veto 
is upheld by Senator Harry Reid as he has promised to do?
    General Campbell. Sir, to be candid with you, I have not 
talked to the President on the NDAA, and for the last several 
weeks I haven't had time to think about the NDAA. I have been 
focused on Afghanistan, so I couldn't give you a good answer 
there.
    Mr. Scott. We ask you to do an awful lot on this end. With 
no NDAA, no budget, and certainly you and your men and women 
are being judged to a standard of perfection and that is kind 
of an unfair scenario that I think that we put you in an 
extremely important mission.
    I represent Moody Air Force Base, home of the 81st. We are 
training the Afghan pilots to fly the A-29 light air support 
aircraft. One of the key aspects of the mission, one of the key 
capability gaps you said is the close air support. You are 
expecting these aircraft in theater pretty soon. We originally 
planned for 40 of them. We are now expected to deliver 20. How 
many do you expect to see delivered? How many do you need? And 
could you speak to just that issue generally?
    General Campbell. Sir, we are looking forward to getting 
the Super Tucano. I will get about six in December timeframe. I 
will get more in 2016, more in 2017. We don't close out the 
program of record I think until mid to late 2018. It will bring 
a great capability that the Afghan forces are lacking. I have 
asked for a holistic study to take a look at the close air 
support capability of Afghanistan both in a rotary-wing and a 
fixed-wing capability. Until that goes through, sir, I couldn't 
make a call on numbers, but right now we are looking at 20. But 
again, I don't get the first five or six until the end of this 
year, and we will get them in the fight as soon as we can, and 
we look forward to that. The Afghans look forward to that, yes, 
sir.
    Mr. Scott. And you think that they have enough impact to 
change the fight?
    General Campbell. Sir, if they would have had the A-29 this 
summer, it would have been a game changer in some locations, 
yes, sir.
    Mr. Scott. Thank you, General, for your service and what 
you and your men and women do. I yield the remainder of my 
time.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. General, I want to 
thank you for your testimony here today and most especially for 
your service to our Nation, which is invaluable, and I hope 
you'll pass our appreciation on to the men and women under your 
command.
    First of all, General, again, I'd like to better understand 
the current situation in Afghanistan, and I hope that today's 
discussion will continue to not only inform our overall 
strategy but will also serve to better protect our men and 
women in uniform and our coalition partners on the ground. We 
have seen too many lives lost in this conflict obviously, like 
Master Sergeant Andrew McKenna from Bristol, Rhode Island, who 
very recently was killed in a terror attack in Kabul. We 
obviously have to do everything we can in our power to ensure 
that our policies in Afghanistan maximize our strategic gains 
while minimizing the tragic loss of lives that we have seen too 
frequently across the headlines.
    Make no mistake about it, General, the work that you and 
the men and women in uniform there who are serving in 
Afghanistan are doing vitally important work, and I know that 
they are defending us here at home in preventing those who 
would plot and plan against us from coming here. At the same 
time there is still a big frustration on the part of the 
committee and certainly on the part of my constituents that the 
Afghan forces are not further along in their training and where 
we need them to be. I would like to begin with a New York Times 
article from yesterday in which a senior Afghan military 
officer blamed the lack of coordination among Afghan units for 
recent Taliban advances. This relates to your mention of the 
need for improved leadership and accountability of ANDSF 
[Afghan National Defense and Security Forces] in your 
testimony.
    So I would like to ask you directly, how do you explain to 
the committee, how do I explain to my constituents back home, 
as to why after the 14 years of effort and training and 
presence there and the billions of dollars that we have spent, 
lives that have been lost, the people that have been injured, 
why the Afghan forces are not further down the pike in their 
training, and why are they not where we need them to be? And 
I'd also like to ask you directly what you need with regards to 
time and resources in order to help build strong leaders ANDSF 
are missing to sustain themselves beyond our eventual 
withdrawal?
    General Campbell. Sir, thanks for the question. I think, 
very quickly, where the Afghan forces--where they plan, where 
they preplan, where they work together, both the cross-pillar 
organization, the police and the army, they conduct operations 
that they work together and preplan, they do very, very well. 
Where they don't, where it is kind of crisis mode, that is 
where they continue to need help in working that. When they 
don't work together, you are right, sir; they don't do well.
    But, again, I would say we have been there for 14 years, 
but this army continues to be very, very young. We have just 
started their air force the last 3, 4, 5 years. The army has 
really only been around for about 8 or 9 years, the police 
about the same timeframe.
    So it continues to be a work in progress, but I would tell 
you, they can do a lot of things very well; but the areas that 
they have issues in are the areas that any army in a time of 
war would have problems. So in logistics and sustainment, 
maintenance, intelligence, close air support, special operating 
force capability, those are all very tough pieces for a U.S. 
Army to do. They have been fighting at the same time they have 
been trying to build this army, so I see continued progress. I 
have been there three times, the first time in 2002, 2003 
timeframe; and where they are today is just light years from 
where they were then, so I do see progress. Their special 
operating capability, I mentioned probably the last time I was 
here a story where you took four Mi-17s [transport helicopters] 
flying version 5 flying from Kandahar into Helmand at night, 
very low visibility, going into a small landing zone, special 
operators coming off the back, a little iPad device talking to 
an Afghan PC-12 [signals intelligence aircraft], giving them 
full-motion video moving to a high-value target.
    I told that story and asked people to close their eyes and 
think about it. Open your eyes and think if that was the 
Rangers, that was the SEALs [Sea, Air, Land forces], that was 
Delta. That was the Afghan special operating forces. So they 
have that capability today, and they continue to get better and 
better. But they do have gaps and seams that we knew they would 
have that we have to continue to train, advise, and assist on.
    Mr. Langevin. Thank you, General. With respect to our 
drawdown, can you talk about NATO's willingness to step up and 
add additional forces there to supplement our drawdown?
    General Campbell. From my discussions with senior members 
of the partner countries, we have 42 right now with pledged 
support. Most of them will continue to support, but it is going 
to take a U.S. decision first before they do that.
    The Chairman. Thank you, General. Thank you. I yield back, 
Mr. Chairman.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. General, thank you 
for being here today as always. You know, on September 11, 
2001, an attack was launched on America from a place that most 
Americans never heard of and by a person that most persons had 
never heard of. And when I think about the freedom that we 
enjoy in this country that came flying in our face that day, 
that it was at risk, I am reminded of what was etched in a wall 
of an isolation cell that Congressman Sam Johnson spent time in 
in Hanoi Hilton that said those that have fought and almost 
died experience the taste of freedom the protected will never 
know.
    And I think sometimes your accomplishments and the 
accomplishments of our military now and throughout history and 
the freedom that we enjoy are often taken for granted in 
America, and I think that that needs to be recognized. I think 
that many in America, and some in this room don't fully 
understand the effort and sacrifice that went behind every one 
of those ribbons and pins that you wear and so many in our 
military wear, and I want to thank you for that and all those 
that serve us in that regard.
    One of the things that you said today that really stuck out 
to me, and I think you know why as a veteran of Iraq, what 
stood out to me is when you said we honor their memory by 
building a stable Afghanistan. I think there is a lot to be 
said for that. I think history has shown, and I believe that 
the greatest chance for peace on this Earth comes from a strong 
U.S. military that can be reactive, can be postured well, and 
can serve as a deterrent to evildoers. I think that is really 
what we are after. I think that is what we want to see happen.
    So my question today is what do you think would be the 
bare-bones level that we can maintain in Afghanistan to prevent 
a vacuum like we have seen in Iraq, and what level gives you 
the most comfort or most assurance that that won't happen? And 
also I want to get some of your thoughts on the benefits of the 
idea that even if we had a stable Afghanistan that was able to 
stand on its own two feet, would there be benefits to us still 
being there in a postured position like we do in other parts of 
the world?
    General Campbell. Sir, thanks for the question. And thank 
you for the thanks. Sir, I don't want to go into details on 
numbers and level. Again, I have provided options to the senior 
leadership. I feel comfortable within those options that I have 
laid it out in terms of risk. Higher is less. Less increase is 
at risk in general terms.
    But I feel comfortable in those options, and I know that 
senior leadership will continue to look at those and weigh 
those, and I have provided pros and cons of all of that. But it 
is based on capability as we look forward. It is not numbers 
but what capability is needed based on Afghan capability and as 
you said, have a U.S. CT mission as well, and we took a hard 
look and included that in there. I do think presence equals 
influence, and if you have people on the ground, you have 
influence.
    If we are not there to provide influence, somebody else is 
going to be there. Whether it is Russia, China, Iran, you name 
it, the U.S. and having people on the ground provides 
influence.
    Dr. Wenstrup. Long-term benefits from even a stable 
Afghanistan?
    General Campbell. Sir, Afghanistan lives in a neighborhood 
that doesn't follow the rules. You take a look at the countries 
around it. Very, very tough neighborhood. Again, presence 
equals influence. Building a stable Afghanistan to provide 
stability in that region, having a partner that wants to 
partner not only with the U.S. but with the other coalition 
nations is key. We haven't had that the last several years, and 
I think we have an opportunity today to take advantage of that 
for a very modest continued investment in both money and 
personnel.
    Dr. Wenstrup. Thank you very much, General. I yield back.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, General 
Campbell, for being here with us today. You talked about 
presence equals influence and other members have mentioned the 
instability and the threat of this same brand of Islamic 
extremism in other countries around the region. Would your 
recommendation, your strategic recommendation, be to maintain 
or deploy a U.S. presence and military service members to other 
countries in the region such as Libya and Yemen that are facing 
similar threats and far greater instability than we are seeing 
in Afghanistan?
    General Campbell. I think Chairman Dempsey before he left 
talked about a regional presence throughout different areas of 
the world, and I would concur with that.
    Ms. Gabbard. How long do you suggest that given the track 
record for the last 14 years in Afghanistan, that we continue 
to ask our service members to deploy to Afghanistan on this 
similar train-and-equip mission given the lack of progress that 
we have seen and given the failures that we have seen in Iraq 
and in Syria?
    General Campbell. Ma'am, I can't talk Iraq, Syria. I would 
disagree a little bit on lack of progress again in Afghanistan. 
I think there has been great progress. I think this fighting 
season has been very tough and I would probably say uneven 
progress. But there are areas and capabilities that they 
continue to have issues with that take any army a long time. 
Building a pilot takes 2 or 3 years. Building a maintainer 
takes 2 or 3 years. We started that late in Afghanistan, so 
that is one area we have to continue to train, advise, and 
assist on for years to come. They want to take this on; and 
they have an attitude, they want to do this by themselves.
    They welcome, I talked about conditionality, so we have an 
opportunity here where we have a willing partner where they 
want to continue to improve on their own capabilities so they 
can be a productive country in that part of the region, not 
only provide for stability and protection for their own 
homeland and the people there, but also for the region.
    Ms. Gabbard. So you are seeing an open-ended commitment 
from the United States military to maintain a presence there?
    General Campbell. I think we have to continually assess 
that, and as we have done over the last several years, we have 
gone from 140,000 down to less than 10,000. The amount of money 
continues to go down, so I think we have been very good in 
continuing to assess that to bring that commitment down.
    I said in my opening remarks this is not without conditions 
and it can't be unlimited forever and ever. But I think we have 
to continue to assess that and make those calls as we go, and I 
have been asked to lay this out for this period in time where 
the Afghan Security Forces are, and that is what I have 
attempted to do.
    Ms. Gabbard. Given the corruption that we have seen though 
in all levels of the government there in Afghanistan, but 
including at the lowest levels, and it has been talked about a 
lot recently given what happened in Kunduz with the Taliban's 
taking over that city for a short period of time, but also 
people saying that it is likely that that was kind of the first 
volley, and that one reason that they were able to do so is 
that the local communities there, and we have seen this in 
other parts of Afghanistan, because of corruption by the Afghan 
local police and by local government.
    People are getting shaken down multiple times and see 
perhaps the Taliban as the lesser of evils in their daily life 
and in their challenges. What is being done about stemming out 
and getting rid of this corruption so that the Afghan folks who 
you have been training can actually do this without us?
    General Campbell. Thank you for the question. Again, I 
think President Ghani, Dr. Abdullah, the MOI, the MOD, the 
senior leadership I deal with every day tries to get after 
corruption. They understand that is a huge issue. It has been 
there for years and years. They are trying to get at it by 
picking the right leadership, holding them accountable. They 
are trying to get at it by looking at procurement. They are 
trying to get at it by providing the right education for the 
leadership and for the folks that join the army and the police.
    I think if you ask most Afghans, they would tell you they 
don't want the Taliban. The Taliban target--the Taliban kill 
innocent women and children. The Taliban put suicide vests on 
little kids and walk them into marketplaces and hold their 
mother or father hostage and say you are going to blow yourself 
up. I don't believe the Afghan people want that. I know the 
Afghan people don't want that. They want to secure Afghanistan, 
and they have that hope because of the Afghan Security Forces 
and because of the great work that our men and women have done.
    Ms. Gabbard. Thank you. Thank you. Just in closing, Mr. 
Chairman, I think it is deeply concerning to consider the idea 
that we would ask our service members to go on this nation-
building mission across the region and it is something we have 
got to look at carefully. Thank you.
    The Chairman. I appreciate the comments of the gentlelady. 
I just want to highlight for members that week after next we 
are going to spend a week in this committee looking at train 
and equip around a variety of countries and what has worked and 
what hasn't. Are there lessons to be learned, because I agree 
with the gentlelady. This is a very important issue that we 
need to dig down deeper on because there are a number of 
instances where it has not worked very well. We need to 
understand that. So I appreciate the comments.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and first of all, I 
want to thank the General for your leadership to our troops, 
your service. But as we move forward with the Taliban, what are 
their abilities to recruit and train? Do we see an uptick in 
that, or has that stayed level, or has it dropped off?
    General Campbell. Sir, I think at least it has stayed 
stable, or at least it has stayed level. Again, they have 
surged really this fighting season because they know that this 
is an opportunity for them because we don't have the coalition 
out in the numbers we have had. They want to make a statement. 
They want to remain relevant. They want to show as potentially 
it moves to discussion of reconciliation that they can operate 
from a position of strength. They have continued to be able to 
recruit.
    When you have somebody there that has no job, no money, no 
future, and somebody comes and offers you $100, $200 to plant 
an IED [improvised explosive device], that is pretty easy to 
do. So I think what we have to continue to do is show the 
people of Afghanistan that they have hope in a better future if 
they continue to support their Afghan Security Forces and the 
government. But for the most part, what I see is the Afghan 
people do not support the Taliban.
    Mr. Nugent. So if they don't support the Taliban, where are 
they recruiting from? Are they recruiting within?
    General Campbell. Both. They recruit from within 
Afghanistan, and there is also reports of foreign fighters that 
come in that assist the Taliban as well.
    Mr. Nugent. And how are they trained? Do we have a metric 
on how they are trained or where they train?
    General Campbell. Sir, I think there are areas inside 
Afghanistan that they have potential training areas. There are 
areas outside of Afghanistan that have sanctuary that provide 
them the opportunity to train. When they conduct attacks, sir, 
it is not something that you would see from a large, modern 
technological force command and control move. This is 
counterinsurgency; one or two people put an IED out there, one 
or two people killing a few people here, suicide vests going 
on.
    They don't follow the rules. All they have to do is go out 
there and cause fear in the people, and that is what they want 
to do, and so fear to make the government seem as though they 
can't provide security for the people. So it is going to take 
everybody in Afghanistan to fight this piece here, but I do not 
believe the Afghan people support the Taliban for the most 
part.
    Mr. Nugent. And that is good to hear. I was there in 2011 
and was struck with--I was in Iraq and Afghanistan--actually 
struck with the security level in Afghanistan versus Iraq in 
2011 when we were withdrawing troops. We had more freedom of 
movement within Afghanistan. We had less restrictions on 
movement in Afghanistan at that point in time, and now I wonder 
where we are as compared to 2011?
    Like I said, when I was in Iraq in 2011, everywhere we went 
was fast, quick, with ballistic protection; and it was just the 
opposite in Afghanistan. Has that changed? If I go to 
Afghanistan today, will I see the same type of movements 
available to us? I got to visit with the Afghan police training 
facility.
    General Campbell. Sir, quite frankly, where we were in 2011 
to where we are today in 2015, we don't have that many areas, 
so most of the areas that you would have to go to you would 
probably travel by helicopter to it and you would land in a 
small location just based on the downsizing, the number of 
people we have.
    So we don't have a lot of folks that end up driving 
throughout Afghanistan at all, just based on location, based on 
the density of people that we have there. As far as the 
Afghans, I think they continue to have, as I said, freedom of 
movement on Highway 1, which is a ring road, throughout Kabul.
    Mr. Nugent. General, I don't mean to interrupt, but one 
last question. In 2007, 2008, my older son was in Afghanistan 
for 15 months. He said, Dad, a lot of folks talk about just 
going back into the Stone Age. He said the problem is they are 
already in the Stone Age. Has that changed at all?
    General Campbell. Sir, absolutely. I think, especially in 
the cities at least; in the outer parts of Afghanistan, you are 
still going to see people that are living in very limited, 
primitive housing, but inside the city, cell phones, business, 
Internet, you name it, as was mentioned earlier today.
    Mr. Nugent. Thank you again, General. My time is expired.
    The Chairman. Mr. Moulton.
    Mr. Moulton. General, I want to thank you again for your 
service, and also specifically for your courage, your 
willingness to come to Washington and say candidly when you 
disagree with the policy that we are sending your way. So thank 
you for that. As an Iraq war veteran, it was hard for me to 
return to Iraq this winter, disheartening to say the least to 
see so much of what my colleagues and I had fought for and 
frankly achieved during the surge gone to waste. And so, I am 
particularly interested in how you are learning from that 
experience to make sure we don't repeat the same mistakes in 
Afghanistan.
    One thing I think that stands out in particular to me is 
that it was not just our rapid withdrawal of troops, but our 
failure to continue to support and influence the Iraqi 
government that ultimately led to it falling apart. In many 
ways what happened in Iraq was not just the failure of our 
train-and-equip mission as far as our troops go. The Iraqi Army 
just put their weapons down and went home because they had lost 
faith in a government that had rotted from the inside. And so 
it was pulling those advisors out of the ministries, out of the 
prime minister's office. We disdain Maliki, but we forget he 
was in power during the surge when we actually made a lot of 
progress and had a relatively stable government.
    But it was because of our influence. So who are you talking 
with from the Iraq experience to make sure that you don't 
repeat those same mistakes? And can you give us some examples 
of things that you are notably doing differently than what we 
did in Iraq?
    General Campbell. Sir, thanks for the question. In 
Afghanistan, we have a lot of Iraq veterans. Thank you for your 
service. So all of them, I think, feel as you do there and want 
to make sure that we learn from our experience, and so as we do 
different plans, as we have taken a look at the security 
cooperation office in particular of what would remain in Kabul, 
how they did that in Iraq versus how they did that in 
Afghanistan, planners got together with planners that had done 
that in Iraq.
    They talked. They worked through that, and we made 
adjustments based on that kind of discussion. I feel confident 
that we have been able to take a look because as you know, the 
military does AARs, or after action reports, on everything we 
do, and so we have to learn by that. I think we have done that 
in that particular case. We have also taken a hard look at how 
we do set up advisor teams, how we can take expeditionary 
advising teams as we continue to downsize and provide some 
level of expertise in particular areas, and I think that has 
helped us.
    I think what you said is key, though, the fundamental 
difference for me between Iraq and Afghanistan is that you have 
a government that is a willing partner here, that wants to 
continue to have a presence from the international community, 
that favors that, that wants it, that asks for it, and wants to 
continue to grow a professional army, a professional police, 
different than what you saw with Maliki.
    Mr. Moulton. I have heard some reports that that government 
is suffering from a serious brain drain right now, where a lot 
of talent is leaving. Are you seeing that? Is it a concern?
    General Campbell. It is a concern; the overall refugee 
piece where young people are leaving Afghanistan is a concern. 
It is a concern for both President Ghani and Abdullah. They 
have both spoken about that. But at the same time I see great 
potential with the army, the police, and young men and women 
that have been trained in the U.S. and the U.K. and Germany and 
other countries as they continue to move up and increase 
responsibility in leadership positions. I see there is some 
really good talent there. We just got to get them into the 
right positions.
    Mr. Moulton. Now from the outside we are seeing cooperation 
between President Ghani and Abdullah Abdullah. Are they 
actually sharing power, or is that an area of concern as well?
    General Campbell. I mean, the national government is hard, 
and I think they have to continue every single day to work at 
it. The President is the President. There is no doubt, I think, 
in his mind or Dr. Abdullah's mind who the President is, but I 
think again on policy matters they continue to work very close 
on that. There is no daylight between them on that. They work 
together in national security councils. They work together in 
the cabinet meetings, but they know there is no other choice 
there as they move forward.
    Mr. Moulton. General, one last question following on Mr. 
Scott's question earlier. Both the Chairman and the Secretary 
of Defense have testified before this committee that using OCO 
[overseas contingency operations] funds to fund the budget of 
the Department of Defense is not a satisfactory way to ensure 
our national security. Do you agree with that position?
    General Campbell. Sir, what I agree with is I have been 
very fortunate to have the resources that I need. I have had 
the right people trained and equipped, and that is because they 
have done it by OCO; but as I think everybody has mentioned, it 
is very hard for any of the services to continue to plan when 
you go year by year.
    Mr. Moulton. I think it is important for you to understand 
that that is the rationale the President has given for voting 
against the NDAA. It is the rationale that myself and others 
who have taken that tough vote have used as well. We hope that 
we can change that situation by forcing the issue. It is in no 
way a reflection of our lack of confidence in you and the 
troops on the front lines. Thank you.
    General Campbell. Thank you.
    The Chairman. Ms. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman. And, General, I 
again want to thank you for being here; and I so much, to my 
colleague's comments, I so much appreciate your candor. It is 
just a fresh moment to have a bottom-line general come in and 
basically say here is what I think to the President. And I 
guess a couple of comments that I have is that I think--and I 
appreciate the gentleman's questions and opinion, but I happen 
to have the opposite opinion--I think that we are talking about 
symptoms in here.
    And I think that we need to remind the American people that 
over the last 3 years, certainly in my short tenure in 
Congress, there really has been a vacuum of foreign policy, and 
there has been a lot of reactionary things happen. There hasn't 
been a whole lot of support that I have seen from this 
administration, and I think that when you have a President that 
stands up and is willing to volley back and forth politically 
the entire defense budget, which absolutely has everything to 
do with the allocation of the good people. You get the money to 
support them.
    I think it is very, very dangerous, and I think the 
American people understand that. And I do appreciate so much 
your not being able to talk to us specifically about the troop 
drawdowns. The things I have seen in the media have been 
anywhere from 1,000 to 5,000 to 8,000, and I guess I really 
appreciate your comment where presence equals influence. I just 
want to make sure that we are talking about, for the record, 
when there is less presence, there is less influence, there is 
greater risk. And that counts across the board. So that would 
count with counterterrorism, train, advise, assist, and force 
protection, and missions. Is that not correct? Isn't that what 
presence equals influence means? The less presence, the greater 
the risk?
    General Campbell. I wouldn't argue with that statement, 
ma'am.
    Mrs. Walorski. And then my other question, General, nobody 
has really talked about; but I am concerned because, and some 
of my other colleagues talked about policy, that you are just 
implementing the policy that we are sending. Well, again, I 
think it is not we are sending policy. There is an 
administration sending a policy that many times can't be 
understood, has created a vacuum for the enemy, and the 
American people certainly don't understand, as the losses in 
Iraq, as the presence of Russia right now in Syria, and I think 
certainly with the Iranian proposal that was signed. Do you 
detect currently, are you concerned about increased Iranian 
presence and what that means as you share a border now that we 
are venturing in by the administration's desire to sign this 
agreement with Iran?
    General Campbell. Ma'am, I won't go into policy, but I will 
tell you, I talked in the SASC [Senate Armed Services 
Committee] as well about Iranian influence on the Taliban and 
providing Taliban the support to fight ISIL as they sought. So 
President Ghani, security forces are concerned and the impact 
that would have from Iran on its western flank.
    If I could add, though, on not really policy but as I have 
gone forward and asked for flexibility for 2015, the 
administration gave me that flexibility. As I asked for 
enablers, a bridging strategy and authorities, I was able to 
get that as well. So, again, I am very comfortable as I 
provided options to my senior leadership, that they put due 
diligence and scrutiny on that, and that is what I would 
expect. I think that is what the American people would expect.
    Mrs. Walorski. Sure. And just a further question on Iran 
and the forces that you are suggesting, does that take into 
account a new level of activity with Tehran and Kabul?
    General Campbell. Maybe not specifically, ma'am, as we 
looked at that. Again, we have seen reports of that. I have 
talked with the Minister of Defense and the impact that would 
have in Herat, specifically on the west, led by the Italians 
out in TAAC-West [Train Advise Assist Command-West] that get 
some of those reports. I don't think we looked at that 
specifically as we looked at the capabilities that are 
required.
    Mrs. Walorski. Sure. And so I guess my final question is as 
we launch into uncharted waters with this agreement with Iran, 
and should you see the need for things going awry for 
additional training, help, forces, money, people, personnel, 
should anything happen on that border, do you feel like you 
have the flexibility with this administration to go back again 
until the administration tells the American people, hey, 
something is wrong here; we need help?
    General Campbell. Ma'am, whether it is on the west, the 
north, the south, or the east, my job is to provide the best 
military advice. If I see issues that I have concerns on force 
protection or the train, advise, assist, I would absolutely 
raise that to my leadership.
    Mrs. Walorski. Thank you, Mr. Chairman. I yield back.
    The Chairman. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, and General Campbell, 
thank you for your service to the Nation. I think Americans are 
getting tired of being bogged down in Afghanistan. We have been 
there for 13, 14 years, and it seems that there is no end in 
sight. It seems like we are doomed to always maintain a troop 
presence there, and I don't think that that is something that 
is good for our country for us to be nation-building forever in 
Afghanistan. That is exactly what the future holds for us.
    There is no point in our plans or in the plans of those who 
want to build the nation of Afghanistan. There is no stopping 
point. Because whenever you do stop, there is going to be some 
adjustments that have to be made, so why not make the 
adjustment now? Why not draw down our troops?
    If the Russians or the Chinese want to come in and be 
players over there, good for them. I would think that they 
would not want to embroil themselves over there. They would 
probably want to see the locals work everything out. What do 
you say to that?
    General Campbell. Sir, I would say that we have continued 
to redeploy and draw down our forces. We have continued to--you 
know, we had that 300 or 400 different outposts when I was 
there in 2010, 2011. We are down to less than 20 today, so we 
have continued to draw down both our forces, and I think we 
have drawn it down responsibly. I am thankful that we have had 
the ability to do that. I think as we look forward, what we are 
trying to do is make sure that we continue to provide the 
Afghans support where they need it, and we can do that 
reasonably and responsibly as we continue to draw down. But in 
the areas that are very tough for them, in the close air 
support and other areas, having a stable government, having a 
stable Afghanistan is not only good for Afghanistan, it is not 
only good for the region, but it is also good for the United 
States.
    Mr. Johnson. I understand that, but it just seems like 
stability is not there, and there will be no stability in the 
short term or in the foreseeable future. There won't be any 
stability with the U.S. presence there with our 10,000 troops. 
I mean, do you believe that we should just maintain that force 
level for the foreseeable future, or should we think about 
drawing down even further?
    General Campbell. Sir, as I said earlier, I have provided 
options to the senior leadership that weighs pros and cons of 
different force levels based on different risk, and I said up 
front, I don't believe it should be unconditional and it should 
be forever and ever. We have to continue to work through that. 
If you look at Korea, if you look at Germany and the amount of 
forces that we continue to have in those countries 70 years 
later, would Korea or Germany be as stable as they are today?
    Mr. Johnson. Well, that is exactly what the American people 
are looking forward to with Afghanistan, is a multi-decade 
presence over there. And if we do maintain ourselves as targets 
over there, as long as we are supporting the Afghan government, 
a corrupt government, which does not have the full allegiance 
of the people, that is highly factionalized over there, if we 
maintain our presence over there and being a target for those 
who just simply want to drive us out, then we are just stuck, 
and I don't believe that is a good thing for America.
    General Campbell. Sir, I am not sure of the question, but I 
don't think they are trying to drive us out. The government 
wants us there.
    Mr. Johnson. I think we are getting sick and tired of being 
sick and tired of the same thing happening over and over again 
in Afghanistan, and I think it is time for us to look at 
closing up shop. And with that I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman, and thank you, 
General Campbell, for your testimony today, for your service, 
and for your family's support over your decades of service to 
our Nation.
    Earlier this year I had the opportunity to participate in a 
delegation visit to Afghanistan with Mr. Wilson, Mr. Moulton, 
and Mr. Ashford, my colleagues on this committee. And in 
addition to meeting with our troops deployed, we also visited 
with President Ghani. One of the issues that President Ghani 
raised was the threat of Daesh within Afghanistan. And in your 
written testimony today you state, quote, ``Daesh has grown 
much faster than we anticipated, and its continued development 
in Afghanistan presents a legitimate threat to the entire 
region. In the last year we have observed the movement's 
increased recruiting efforts and growing operational 
capacity.'' I wanted to see if you could elaborate on 
specifically what you are seeing on the ground in terms of that 
increased recruitment efforts, their operational capacity, and 
their presence in the 34 provinces in Afghanistan?
    General Campbell. Thank you, ma'am. I am sorry I wasn't 
there when you came through. In fact, I was back here, I think, 
testifying. Thank you for taking the visit. Daesh, or ISIL-KP, 
continues to be a concern to President Ghani, Dr. Abdullah, the 
security forces. Pakistan has issues with Daesh as well. I have 
talked to General Raheel about that. I think if you talk to 
President Ghani about it in terms of recruiting what he would 
have told you was Al Qaeda was Windows 1.0, Daesh is Windows 
7.0 in their ability to use social media to get out and 
recruit. Having said that, Daesh and Taliban ideology, they are 
different and so they continue to fight each other specifically 
in the province of Nangarhar in the east. That is where we have 
seen the biggest presence of Daesh. There are reports 
throughout the different provinces upward of probably 25-plus 
provinces we have had reports of Daesh; but the significant 
presence is really in the east and Nangarhar. It is down in 
northern Helmand a little bit and probably in Sar-e Pol and 
Herat and Ghor in the west.
    I don't believe today--you know, when I was here in 
February, March, I would have said it was nascent. Today I 
would say it is operationally emergent. So we have to continue 
to watch, and we have to continue to make sure that the Afghans 
apply pressure on ISIS or Daesh to make sure that it doesn't 
continue to grow. As you know, they are very barbaric, brutal, 
and they've shown instances of that in Afghanistan as well by 
cutting off heads of captives, by kidnapping, by taking men and 
women, throwing them on a pile of IEDs and blowing that up. So, 
again, the Afghan people have no time for Daesh there. And the 
Afghan Security Forces want to continue to go after that.
    Ms. Stefanik. What is your assessment of Afghanistan's 
approach to countering recruitment efforts? You talked about 
Daesh's successful social media which we are seeing throughout 
the Middle East today. And, frankly, globally. What is your 
assessment of what President Ghani and his administration are 
doing in countering that?
    General Campbell. I think a lot of it is the educational 
piece. They are trying to work that in the universities. They 
are trying to work that through radio, TV campaign ads, and 
showing the benefits of having a unity government supporting 
the Afghan Security Forces. You know, I don't think for the 
most part they have to--well, they show a video of how brutal 
Daesh is. You know, that really just turns the people away. So 
they have to continue to work that very hard. I think they have 
done a good job at that. And they will continue to try to work 
together, both with the [Operation] Resolute Support forces on 
the ground, and the neighbors in the region.
    President Ghani is approaching this really from a regional 
standpoint and has said, you know, we are fighting Daesh. We 
are fighting this for the entire region. We have got to 
continue to reach out. And they will hold a conference here I 
think the end of October timeframe where they bring in all the 
operational and the intelligence arms of all the surrounding 
countries to talk specifically about Daesh and how they can 
combat that together.
    Ms. Stefanik. Thank you very much. I yield back.
    The Chairman. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman. I appreciate it. 
General, appreciate you being here. Can you give us a size, 
just as a follow-up to the last question, can you give us a 
sense of the size of Daesh and ISIS and their presence in the 
region?
    General Campbell. Are you talking about just a number, sir?
    Mr. Aguilar. Yes, sir.
    General Campbell. This would be, you know, a guess, but 
open source reporting would be anywhere between 1,000 and 
3,000.
    Mr. Aguilar. And your best guess on what that will look 
like in the next few years if not managed or contained?
    General Campbell. Well, sir, they have a--you know, their 
stated goal is to build a Khorasan province that includes 
Afghanistan, parts of Pakistan. They want Jalalabad out in the 
east to be the capital of the Khorasan province. So they are 
going to continue to fight hard in Nangarhar. They want to 
spread that north up into Kunar and Nuristan. And unchecked, I 
mean, they will continue to grow a base.
    But I do believe the Afghan Security Forces understand 
this. There is operations ongoing today that are going after 
Daesh in Nangarhar by both the army and the police in the 201st 
Corps which is based in Nangarhar.
    Mr. Aguilar. You know, we understand and we have read that 
some members of the Taliban have gone over toward these 
networks because of the change the leadership. Can you give us 
any other discussion or comments about other reasons why they 
have made that transition?
    General Campbell. I think a lot of it, you know, there has 
been a lot of TTP [Tehrik-e Taliban Pakistan], Pakistan 
Taliban, that has switched over. There has been regular Taliban 
that has switched over, or have at least publicly expressed 
allegiance to ISIL, Daesh. I think some of it is they think 
they are going to get more resources. They look at it as maybe 
more media attention.
    And so I think for a lot of these reasons you have some 
folks that don't want to come back into the government, that 
don't want to reconcile, that want to continue to fight, and 
they will join something new like Daesh that is coming up 
there. And they see what is happening in Iraq and Syria. And 
for whatever reason, why somebody would want to do that I 
couldn't tell you, but, you know, they see that as something 
they want to do and they continue to join that.
    But, again, I think from a regional standpoint, President 
Ghani, Dr. Abdullah, General Raheel, they want to fight this. 
They want to continue to get it now before it grows out of 
control as you talked about.
    Mr. Aguilar. Thank you, General.
    Appreciate it, Mr. Chairman. I will yield back.
    The Chairman. Thank you.
    Mr. Knight.
    Mr. Knight. Thank you, Mr. Chairman. Thank you, General, 
for your service.
    I just had a couple quick questions. Can you give me an 
idea of the definition of train and assist? When we went to--I 
went over to Poland and some other countries with the chair and 
other members, and I was thoroughly impressed with the Polish 
soldiers and the interaction that we had with U.S. forces. So 
can you give me an idea what train and assist means for the 
Afghans? What is going to happen when they are done, when they 
are through with their training? What can we expect from them? 
How they are going to interact? Those types of things.
    General Campbell. Sir, thanks for the question. Again, the 
numbers that we have right now, as the chairman asked me early 
on, we are really working on the ministerial level, and at the 
ministerial level we are focusing on what we call eight 
essential functions. So in the intelligence realm, in the 
planning, programming, budgeting, execution realm, transparency 
and accountability, sustainability, intelligence, strategic 
communications.
    What we do at that area is our trainers are now really our 
new weapons systems, and we have much more senior folks. Where 
this war would have been about privates and captains and 
sergeants, lieutenants, our advisors are more senior, generals 
and lieutenant colonels and colonels and great senior 
civilians. And they are trying to bring this technical 
expertise to build the capacity of the Afghan ministry.
    So the Interior and the Defense. We don't have people at 
their basic training. We don't have people providing them, you 
know, marksmanship training. They do all that themselves. So 
the Afghans for the most part do all their own training. EOD 
[explosive ordnance disposal] training, all of that. The 
technical areas that they don't have the expertise, the 
maintenance areas and pilots, and growing their air force, that 
is where we continue to have to do the train, advise, and 
assist.
    Mr. Knight. Okay. Very good. And, you know, with the recent 
issues with Russia and their strikes in Syria, can you give me 
an idea of the level of maybe the weekly or monthly interaction 
that you get with, and I will use different terms than I am 
sure you use now, but maybe between you, sir, commanders, and 
people of that level that, you know, the four-stars are going 
to get together and talk about what is happening in the region. 
I know that this region is quite a bit to the west of you, but 
it is going to affect maybe what happens in Afghanistan, maybe 
what happens in--now that we are getting strikes from the 
Caspian Sea. I would expect that there are kind of connective 
interactions between the commanders between what is happening 
now.
    General Campbell. So I talk to General Austin, who is the 
CENTCOM [Central Command] commander, several times a week. I do 
have email and video teleconference and telephone conversations 
with General Breedlove, who is the SACEUR [Supreme Allied 
Commander Europe]. I have talked to General Rodriguez, the 
AFRICOM [Africa Command] commander. I know that AFRICOM, EUCOM 
[European Command], and CENTCOM talk quite frequently to 
understand. Because, as I said up front, terrorism has no 
boundaries.
    Mr. Knight. Correct.
    General Campbell. So a very good relationship between the 
combatant commanders there. But I mostly talk to General Austin 
through CENTCOM based on the region I am there. I did have the 
opportunity couple weeks ago to go to India to talk to some of 
the senior leadership in India to talk about Afghanistan, how 
that plays--how they are tied in with Afghanistan, what that 
means to China and Pakistan. Really quite helpful for me.
    And also to explain how Afghanistan is tied into that. 
President Ghani, again, is reaching out to the entire region. I 
think is quite helpful. Last Monday, I was in Germany for a day 
with General Austin. We brought the chiefs of defense from five 
of the countries surrounding Afghanistan to bring them together 
to talk, Pakistan, Turkmenistan, Uzbekistan, Kyrgyzstan, all 
came together to talk about regional issues, border issues, 
drug smuggling, what they can do to enable each other to fight, 
you know, this common enemy. So, that was quite good.
    Mr. Knight. Very good. Thank you, General.
    General Campbell. Thank you.
    Mr. Knight. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. General, thank you 
for being here. I want to talk a little bit about the capacity 
of the Afghan troops that we are training. From your testimony, 
you know, you characterize the security forces' performance at 
the end of--the Afghan National Defense Security Forces as 
uneven, inconsistent, required--still require broad support. 
You know, you talk about the fact that without key enablers and 
competent operational level leaders they can't handle the fight 
alone.
    In contrast, you talk about the ASSF [Afghan Special 
Security Forces] and how they are actually able to mount 
operations and seem to be much more successful. What I am 
concerned is that we seem to be talking a lot in our metrics 
about our training the security forces in terms of numbers. How 
many do we think they need to accomplish the mission as opposed 
to the capacity or the quality of the forces? I just think that 
we are a little over-focused on building up troop levels in 
terms of quantity. You laid out a few significant threats that 
we face in Afghanistan and the region.
    So as the President evaluates what right troop and advisor 
levels are, could you explain what the primary issues and 
variables are that continue to plague the security forces' 
ability to carry out its mission independently? And compare 
that to the ASSF who seem to be able to have the capacity to do 
this on their own.
    General Campbell. Thank you, ma'am, for the question. Yeah. 
I was very tough on the Afghan Security Forces in my written 
comments there. And I have talked to the Afghan partners about 
all of those. And, again, you have to have that type of 
relationship to be able to continue to improve. And I value 
that with both the MOD and the MOI.
    And, again, we are not at the levels of the Kandak 
Battalion Brigade. We are on four of the six corps, and we are 
at the ministry level. So some of those comments really focus 
at the senior leadership. And what I have told President Ghani 
is that if you pick the right leaders, you put the right 
leadership in place, and you hold them accountable, that is 
going to take care of about 70 percent of the issues that we 
see day-to-day out there.
    One of the reasons that the Afghan Special Forces, the 
ASSF, are where they are at is because we continue to provide 
train, advise, assist at the tactical level with them today. We 
don't do that with all the conventional forces. They also have 
the ability, based on their size, much smaller, and the 
training that they go through, that they have a very good force 
generation cycle. So they are able to go training, they are 
able to take some leave, and then they know they are going to 
go into the fight.
    For the most part, in the rest of the police, and the rest 
of the operational force, they don't have that. So if you are 
down in Helmand and you have been there for 3 years, you have 
probably been in a consistent fight for 3 years. And you have 
had very little opportunity to train. You have had very little 
opportunity to take leave. And they are really working hard at 
trying to figure out how they can work this force generation 
cycle into the conventional side. And they really want to get 
after that as one of their priorities if they have sort of a 
winter lull after this fighting season. I think if they can get 
there, their performance would continue to improve.
    They have some very good young leadership at the captain, 
the lieutenant colonel level. But they have got to continue to 
progress. They need more experience. So although I was very, 
very tough in some of the words there, I do believe that they 
continue to improve and that they are very resilient. And with 
continued time, it will get much, much better.
    Ms. Duckworth. So would one of key contributing factors to 
their high AWOL [absent without leave] rates be this lack of 
sufficient force generation level? And then I would just ask my 
second question. You can take the rest of the time to answer 
them. Since it is throwback Thursday, I am going to use an old-
fashioned term.
    I do feel like that there is a real lacking in the Green 
Tab leadership training that is going on here, that those 
frontline leaders who--and in your testimony you talk about the 
fact that when they do execute deliberate cross-pillar 
operations that are planned and resourced, they are actually 
successful. So what is going on there? We have the high AWOL 
levels at that Green Tab leaders, you know, the young--even 
more junior than your lieutenant colonels. But even younger 
than that. Is that what is going to company grade folk?
    General Campbell. Yeah, I think you're absolutely right. 
The attrition level or a lot of the reason because the 
attrition and the AWOL is because of poor leadership. They 
don't have sergeants, they don't have company commanders, 
platoon leaders that know everything about them and take their 
welfare into consideration like we do back in all of our 
services here. They don't have that non-commissioned officer 
corps.
    We are trying to build that, that is the backbone of all 
our services, that would look after those type of things. So 
they are working on that. And then, as you said, the force 
generation cycle, if they got that better, that would reduce 
the level of attrition as well.
    What we are trying to do on the leadership piece is, and I 
know you would be familiar with this, on pre-command course. We 
have initiated a pre-command course for their lieutenant 
colonels. Before you are a battalion commander, you have to go 
through a leadership pre-command course. Before you are a 
brigade commander, you have to go through the same thing. We 
have started, have not run yet, a capstone type course for 
their general officers, and that will get initiated. So their 
human capital and leadership piece we have to continue to work.
    Ms. Duckworth. It is year 14, though. We have--I don't know 
how many more years we can keep doing this. But thank you for 
your testimony.
    I yield back.
    The Chairman. Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman. I guess as I look at 
these colors on the wall behind us, on them are 11 streamers 
from the Philippine campaign. And from 1899 to in the mid-1913 
to 15 period is when those 11 streamers were earned. And we 
debated these same things in this Congress about the worthiness 
of can we train the Philippine constabulary.
    Can we track down Emilio Aguinaldo and bring him to 
justice? Can we deal with the insurgents and the Moro warriors? 
Can we? Can we? Can we? And yet we did. We transitioned a 
government successfully. We did capture Emilio Aguinaldo and 
execute him, bring him to justice. And we saw our warriors 
achieve all of that despite what we here in the Halls of 
Congress often question.
    I look back on 9/11; at that time two-thirds of the country 
was under the control of the Taliban. Very little of it was 
under the hands of anyone that had freedom. Girls weren't 
allowed to go to school; couldn't fly a kite. It was ``haram'' 
[forbidden] to play a radio or to play chess in Kabul. I 
remember it. We have seen successful elections and the 
transition of government successfully.
    I remember working with the British 2nd Parachute Regiment 
and 3rd Special Forces when the Afghan National Army was 
nothing but 600 people that showed up. And now we see 150,000. 
And, Mr. Chairman, what strikes me is that isn't it wonderful 
that we are debating 150,000 troops in the field and their 
capacity for intelligence and command and control and complex 
operations in an urban and rural environment.
    Thank God we have reached that point to get to that point, 
and that we are having the debate and these discussions. And it 
is due to warriors like this that are sitting before us that 
makes that possible.
    General Campbell, thank you for your perseverance and 
patience and enduring our questions. The Status of Forces 
Agreement--often we saw that that was problems with the Iraq 
experience. And I know we are much further along with President 
Ghani.
    And I know from having worked personally with Dr. Abdullah 
at a Afghan National Security Conference in Geneva, 
Switzerland, in 2002 that we do have some capability there in 
Kabul with the leadership. Are there any limitations on the 
status of forces that you can see moving forward as we morph 
the troops, they are based embassy, not strike force, not train 
and assist, any shortcomings that we can assist you with on the 
Status of Forces Agreement.
    General Campbell. Sir, I have seen none. And if we have had 
issues, I have gone to President Ghani and we have worked 
through those. But absolutely none right now.
    Mr. Russell. That's very encouraging. And you also made 
note that the strength of the ANA [Afghan National Army] was 
that it was not fractured. I think that is an important point. 
They haven't broken. They have retaken ground. They have 
regrouped. They are determined to fight. They don't drop their 
weapons and run. Could you speak to that a little bit?
    General Campbell. Sir, absolutely. And, you know, people 
try to compare Iraq and Afghanistan. I tell them it is 
absolutely different. In Helmand in July timeframe, Taliban 
took over District Center Musa Qala. It took the Afghans a 
little bit of time to reorganize. They changed out some 
leadership. They put a battalion commander in jail because he 
ran. So they did make the right corrections. They resupplied. 
They got back into Musa Qala, took over the district center. 
But it took them a couple of weeks to do that. They were very 
methodical as they went about that. They eventually got that 
done.
    In Kunduz, they did that much quicker, and within a couple 
days they were back inside of the city. And they have taken a 
hard look just like all of our services will to figure out why 
that happened, to make sure it doesn't happen someplace else. 
And that is a sign of a professional army, a professional 
police, and a sign of a government that wants and cares for 
their security forces. Quite frankly, you know, President Ghani 
is a commander in chief. And that is different than what we 
have had there before.
    Mr. Russell. Well, I appreciate that. In fact, I think 
about our history in the United States Army. Forty years after 
our formation we broke and ran and left this capital exposed in 
1812, and it was set on fire. I am glad that our Nation didn't 
give up on us at that time.
    The authority to strike Daesh, are you allowed any 
independent or are there any prohibitions on your command level 
to strike Daesh independently, or does it have to go through 
the Afghan structure?
    General Campbell. Sir, I can strike insurgents if force 
protection issue to our forces.
    Mr. Russell. Thank you. And thank you, sir, for your 
dedicated service to our Nation.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. General Campbell, 
good to see you again. Thanks for your continued service to our 
country and everything you are doing in Afghanistan. It was 
great to see you in May when we were over there on the 
congressional delegation. I know the current situation with the 
hospital is under investigation, but I wanted to just ask about 
the targeting process in general. Since the last time I was 
over there in uniform with my A-10s, we were--and when my time 
in the Air Operations Center, we would usually strike under two 
different circumstances.
    Either counterterrorism dynamic targeting in which case the 
decisions and positive identification and collateral damage, 
all that stuff was done back at the headquarters with approval 
to then strike. Or we were under a joint terminal attack 
controller's control, a JTAC, in close air support. And 
obviously we had U.S. troops very much deployed all over the 
nation at that time. But even sometimes the JTAC was back at 
headquarters and not, you know, in the fight that we were 
hitting, but they were still the ones that were, you know, 
calling the shots and making sure we had the PID [positive 
identification] and the collateral damage assessment.
    Can you just walk me through what the--and maybe this is 
not in this setting, it may be a classified answer, what the 
targeting process is right now, both if it is just on the U.S. 
side but also if, you know, the Afghans are asking for support. 
How do we go through that and make sure we have PID and CDE 
[collateral damage estimation], and do you see any--I can 
imagine you see challenges as we have left forward presence and 
being able to get that PID and CID [combat identification] done 
correctly. So if you could just share that. And, again, if you 
need to talk classified, we can do that afterwards.
    General Campbell. Ma'am, I would go to a classified session 
and give you that. I would say that we continue to ensure that 
we have PID. And we are very, very precise, and, you know, it 
is very rigorous. And so I can cover all those in a----
    Ms. McSally. Great. But, I mean, but is it safe to say that 
with the troops being pulled back more to centralized locations 
and less numbers that it is just more challenging for us to get 
that good intel in order to reach PID?
    General Campbell. It may be more challenging, but, you 
know, that means I would not----
    Ms. McSally. Absolutely. I totally agree with that. Great. 
So it just becomes more of a challenging situation. And what 
about if the Afghans ask for support? Again, we can--if you 
want to talk about that in a classified setting.
    [The information referred to is classified and retained in 
the committee files.]
    General Campbell. As I said up front, if the Afghans ask 
for support like they do almost every day, then it still has to 
go through our processes.
    Ms. McSally. Okay. Great. Thank you.
    When we talked to you in May, there was some setbacks, I 
would say, or delays in moving some of the things forward that 
we were trying to do with the ANSF because of the fragility of 
the unity government being formed and some delays in obviously 
setting a defense minister and a lot of that seemed to have 
brought some things a standstill.
    Similarly, the uncertainty as to whether we were going to 
be there and how long we were going to be there and at what 
time we were pulling out was creating--when we talked to 
individuals in the Afghan Security Forces and parliament and 
others that uncertainty was creating a lot of angst and just 
delaying a lot things that we were trying to move forward. Has 
anything changed since we talked in May and have things gotten 
better?
    General Campbell. I think in some areas better, some they 
are about the same. I think on the Ministry of Defense, 
although Mr. Stanekzai is an acting minister, he has really 
taken charge. I've got great trust and confidence in him. He 
has got a great vision for the future of the Ministry of 
Defense. We all thought that he would be the minister, and on 
July 4 he didn't get through parliament, but has been in an 
acting capacity, and he is doing quite well. And I think it 
would do good for the parliament there to ensure that Minister 
Stanekzai continues to serve in that position.
    In other areas, there have been some holdbacks waiting 
for--I mean, there is going to be people that are waiting to 
find out where the U.S. is going to go post-2016. I think they 
are pretty comfortable for 2015 into 2016. But after that we do 
get a lot of questions on that.
    Ms. McSally. Great. Thanks. What else can we do to help 
build the Afghan National Air Force and the close air support 
[CAS] capability that they need? Is there something else you 
need from us, whether it is authorities, resources, platforms? 
I know you have touched on it in your testimony, but can you 
just share what else we need to do to be able to--because if 
they don't have CAS, then that is obviously that is a 
significant shortfall for them.
    General Campbell. Right. I think everybody back here, OSD 
[Office of the Secretary of Defense], everybody is working very 
hard to get after that. So part of it is just going to take 
time. It takes 2 to 3 years to get a pilot through. Afghanistan 
understands they have to make some tough decisions, you know, 
kind of left of the boom.
    So 2 or 3 years out they got to put the right number of 
people in with the right training to get through pilot 
training. And if they don't make those decisions now, you know, 
it is going to take longer and longer. So we work with them 
very hard on that. But I think everybody's working hard to get 
there. There are some restrictions that inhibit or have 
inhibited in the long haul on their Mi-35s [multi-role 
helicopter], Mi-17s [transport helicopter], we are all working 
through. Quite frankly, when they started the fighting season, 
they had five Mi-35s. Today they have two. And at the end of 
this fighting season, just based on structural integrity of the 
aircraft, they won't be able to fly and they will be down to 
Mi-17s, which are not designed to be a close air support 
platform.
    We do have MD 530 Little Bird helicopters coming in, and as 
soon as we get the fixed-wing aircraft that we talked about 
earlier, the A-29 [Super Tucano aircraft], that will help. But 
we are taking a holistic look at what they really need based on 
the continued fight, wear and tear, the attrition level of the 
aircraft, that kind of thing.
    Ms. McSally. Great. Thanks. And, again, thanks to you and 
your family for your continued faithful service to the country. 
I yield back.
    The Chairman. Thank you. General, appreciate you patiently 
answering all of our questions. More importantly, very much 
appreciate you and those who serve with you for what you do 
every day to protect the security of our Nation by working with 
the Afghans and in other ways. It is challenging circumstances.
    Part of those challenges are external environment. Part of 
them are placed upon you by the chain of command. But I think 
it is clear to all of us that you are making the most of the 
situation for the country's security. And we are very grateful 
for your service.
    With that, the hearing stands adjourned.
    General Campbell. Thank you, Chairman.
    [Whereupon, at 11:52 a.m., the committee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                            October 8, 2015

    
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 8, 2015

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            October 8, 2015

=======================================================================

      

            RESPONSES TO QUESTIONS SUBMITTED BY MS. SANCHEZ

    General Campbell. Detailed records are not on hand to completely 
answer how many people have been recruited and trained over the 14 
years in the Afghan Army and Police. Resolute Support staff was able to 
obtain records that show from 2009 to 2015 a total of 233,966 police 
were recruited and trained. From 2013 to 2015, a total of 97,051 army 
forces were recruited and trained.   [See page 11.]
    General Campbell. Resolute Support does not have the authority to 
determine what, if any, amount was allegedly stolen by Mr. Karzai or 
his associates.   [See page 13.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            October 8, 2015

=======================================================================

      

                    QUESTION SUBMITTED BY MR. HUNTER

    Mr. Hunter. General Campbell, I would like your assessment how the 
Bilateral Security Agreement (BSA) is impacting U.S. contractors' 
ability to support your mission. These contractors are a critical part 
of our total force and it is my understanding that they are being 
frustrated at every turn in their efforts to operate in compliance with 
Afghan laws. If these contractors can't perform the jobs we have asked 
them to do, we increase our odds of mission failure. General, resolving 
this problem requires a government-to-government solution, will you 
commit to engaging directly with President Ghani in an effort to remedy 
this problem?
    General Campbell. The BSA subjects contractors to Afghan law and 
policy. Prior to the BSA, contractors in Afghanistan were not required 
to obtain visas and business licenses. These requirements are now 
integral to Afghanistan's status as a sovereign nation. We have 
processes in place to help resolve most problems as they arise, 
including dialogue through a joint U.S.-Afghanistan commission 
established by the BSA. In areas we cannot agree, I will continue to 
work with Ambassador McKinley and President Ghani for constructive 
solutions to matters of common concern.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
